   Department of Veterans Affairs
          Office of Inspector General




Semiannual Report to Congress

Issue 63 | October 1, 2009—March 31, 2010
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiann/reports.asp


To access other OIG reports, visit: http://www.va.gov/oig/publications/reports-list.asp




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:


                                 Office of Inspector General (53B)
                                  Department of Veterans Affairs
                                    810 Vermont Avenue, NW
                                      Washington, DC 20420




Automatic Notifications
OIG offers a free e-mail subscription service that provides automatic notifications by e-mail when
new reports or other information is posted to the OIG web site. You may specify that you would
like to receive notification of all OIG reports or only certain types of OIG reports. In addition,
you may change your preferences or unsubscribe at any time. To receive e-mail notifications of
additions to the OIG web site, go to: http://www.va.gov/oig/publications/reports-list.asp and click
on “Sign up to receive e-mail updates.”

In addition, you can also sign up to receive OIG’s RSS feeds by visiting:
http://www.va.gov/oig/rss/reports-rss.asp and clicking on “Subscribe to this feed.”
   Message from the
                                                       Inspector General
                                                     I am pleased to submit this issue of the Semiannual
                                                     Report to the Congress of the United States. Pursuant
                                                     to the Inspector General Act of 1978, as amended,
                                                     this report presents the results of our most significant
                                                     accomplishments during the reporting period
                                                     October 1, 2009 – March 31, 2010.

                                                   During this reporting period, the Office of Inspector
                                                   General (OIG) issued 120 reports on VA programs
                                                   and operations. OIG inspections, audits, evaluations,
                                                   investigations, and other reviews identified nearly
                                                   $673 million in monetary benefits, for a return of
                                                   $14 for every dollar expended on OIG oversight. One
   audit identified approximately $276 million in funds that could be put to better use if the Veterans
   Health Administration (VHA) timely reviewed obligations for purchases no longer needed and de-
   obligated funds so that funding could be used for other purposes.

   Our criminal investigators have closed 424 investigations, and made 269 arrests for a variety of
   crimes including fraud, bribery, embezzlement, identity theft, drug diversion and illegal distribution,
   computer crimes, and personal and property crimes. OIG investigative work also resulted in
   232 administrative sanctions. In one case, a fiduciary was sentenced to 55 months’ incarceration
   after pleading guilty to making a false statement to VA in an effort to conceal her embezzlement
   of Veterans’ funds. A joint Federal and state investigation determined that the defendant had
   embezzled nearly $1 million from 33 disabled Veterans while acting as their appointed fiduciary.

   Another audit of the Veterans Benefits Administration (VBA) Fiduciary Program revealed that
   program weaknesses identified in a 2006 OIG audit persist, and that VBA still needs to improve its
   management infrastructure in the areas of information systems, staffing models, and management
   oversight to protect the financial assets of vulnerable Veterans. OIG’s audit of Compensation &
   Pension examinations found many Veterans do not receive timely medical examinations because
   VA medical facilities do not commit sufficient resources to them. Increased oversight and greater
   collaboration between VBA and VHA are needed to reduce delays in examiniations that can impact
   the delivery of disability benefits to Veterans.

   OIG published Combined Assessment Program reviews of 22 VHA medical centers, focusing
   on a variety of actions critical to ensuring that Veterans receive high quality medical care. OIG
   made suggestions to improve quality management, credentialing and privileging of providers, and
   procedures to clean and sterilize reusable medical equipment. In reviews of community based
   outpatient clinics (CBOCs), OIG made recommendations to ensure that Veterans receive the same
   high quality of care whether they are treated at medical centers or free standing clinics. OIG also
   suggested actions to improve contracting for primary care at CBOCs.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                             |1
Issue 63 | October 1, 2009 — March 31, 2010
                  Message from the Inspector General, continued

We appreciate the ongoing support we receive from the Secretary, Deputy Secretary, and senior
management. We will continue to partner with VA and Congress to help transform VA into a
21st Century organization. Most importantly, we will continue to do our part to ensure America’s
Veterans receive the care, support, and recognition they have earned in service to our country.




GEORGE J. OPFER
Inspector General




                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
|2
                                                                       Issue 63 | October 1, 2009 — March 31, 2010
Table of Contents

Message from the Inspector General | 1

Statistical Highlights | 4

VA and OIG Mission, Organization, and Resources | 5

Office of Healthcare Inspections | 7

         Combined Assessment Program Reviews | 7

         Community Based Outpatient Clinic Reviews | 8

         National Reports | 8

         Hotline Reports | 9

Office of Audits and Evaluations | 15

         Veterans Health Administration Reports | 15

         Veterans Benefits Administration Audits and Evaluations | 15

         Veterans Benefits Administration Benefits Inspections | 16

         American Recovery and Reinvestment Act of 2009 Reports | 17

         Other Reviews | 17

Office of Investigations | 19

         Veterans Health Administration Reports | 19

         Veterans Benefits Administration Reports | 23

         Other Investigations | 30

         Administrative Investigations | 32

         Employee-Related Investigations | 33

         Threats Made Against VA Employees | 34

         Fugitive Felons Arrested with OIG Assistance | 36

Office of Management and Administration | 37

         Hotline Division | 37

Office of Contract Review | 39

         Preaward Reviews | 39

         Postaward Reviews | 39

Other Significant OIG Activities | 40

         Congressional Testimony | 40

         Special Recognition | 41

Appendix A: List of OIG Reports Issued | 42

Appendix B: Status of OIG Reports Unimplemented for Over 1 Year | 54

Appendix C: Inspector General Act Reporting Requirements | 59

Appendix D: Government Contractor Audit Findings | 61

Appendix E: American Recovery and Reinvestment Act Oversight Activities | 62



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                |3
Issue 63 | October 1, 2009 — March 31, 2010
                                                                                       Statistical Highlights
�

                                      For the Reporting Period October 1, 2009—March 31, 2010
                                 Better Use of Funds                                                                        $276.0
           DOLLAR IMPACT
                                 Fines, Penalties, Restitutions, and Civil Judgments                                          $45.9
             (in Millions)
                                 Fugitive Felon Program                                                                       $63.6
                                 Savings and Cost Avoidance                                                                 $282.3
                                 Questioned Costs                                                                               $.05
                                 Dollar Recoveries                                                                              $5.0
                                 Total Dollar Impact                                                                        $672.9
                                                            1                                                                 $47.0
                                 Cost of OIG Operations
                                 Return on Investment (Total Dollar Impact/Cost of OIG Operations)                              14:1
                             Reports Issued
                                 Administrative Investigations                                                                       2
                                 American Recovery and Reinvestment Act                                                              3
                                 Audits and Reviews                                                                                  9
                                 Benefits Inspections                                                                                6
                                 Combined Assessment Program Reviews                                                               22
                                 Community Based Outpatient Clinic Reviews (encompassing 15 facilities)                              2
                                 Healthcare Inspections                                                                            26
                                 Preaward Contract Reviews                                                                         35
                                 Postaward Contract Reviews                                                                        15
                                 Total Reports Issued                                                                            120
                             Investigative Activities
                                 Non-Fugitive Felon Arrests                                                                      235
              OTHER IMPACT




                                 Fugitive Felon Arrests                                                                            34
                                 Fugitive Felon Apprehensions by Other Agencies with OIG Assistance                                  8
                                 Indictments                                                                                     150
                                 Criminal Complaints                                                                               80
                                 Convictions                                                                                     169
                                 Pretrial Diversions                                                                               20
                                 Administrative Sanctions                                                                        232
                                 Cases Opened                                                                                    421
                                 Cases Closed                                                                                    424
                             Healthcare Inspections Activities
                                 Clinical Consultations                                                                              1
                                 Administrative Case Closures                                                                      10
                             Hotline Activities
                                 Cases Opened                                                                                    425
                                 Cases Closed                                                                                    514
                                 Administrative Sanctions                                                                          22
                                 Substantiation Rate                                                                            46%
                                 Contacts                                                                                   14,600
1. This figure does not include the $9.4 million operating cost for the Office of Healthcare Inspections (OHI). We do not include this 

figure because oversight work performed by OHI results in saving lives and not dollars.
	


                                                                                                      VA O f f i c e o f I n s p e c t o r G e n e r a l
4|
                                                                                                  Issue 63 | October 1, 2009 — March 31, 2010
VA and OIG Mission, Organization, and Resources

Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and
compassion and to be their principal advocate in ensuring that they receive the care, support, and
recognition earned in service to the Nation. The VA motto comes from Abraham Lincoln’s second
inaugural address, given March 4, 1865, “to care for him who shall have borne the battle and for his
widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For fiscal year (FY) 2010, VA is operating under a $127.1 billion budget, with nearly
300,000 employees serving an estimated 23.1 million living Veterans. To serve the Nation’s Veterans,
VA maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico,
Guam, and the Republic of the Philippines.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Benefits Administration (VBA) provides monetary and readjustment benefits,
and the National Cemetery Administration provides interment and memorial benefits. For more
information, please visit the VA Internet home page at www.va.gov.

VA Office of Inspector General
The Office of Inspector General (OIG) was administratively established on January 1, 1978, to
consolidate audits and investigations into a cohesive, independent organization. In October 1978,
the Inspector General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector
General (IG) in VA. It states that the IG is responsible for: (1) conducting and supervising audits
and investigations; (2) recommending policies designed to promote economy and efficiency in the
administration of, and to prevent and detect criminal activity, waste, abuse, and mismanagement in VA
programs and operations; and (3) keeping the Secretary and Congress fully informed about problems
and deficiencies in VA programs and operations and the need for corrective action. The IG has
authority to inquire into all VA programs and activities as well as the related activities of persons or
parties performing under grants, contracts, or other agreements. Inherent in every OIG effort are the
principles of quality management and a desire to improve the way VA operates by helping it become
more customer-driven and results-oriented.

OIG, with just over 500 employees from appropriations, is organized into three line elements: the
Offices of Investigations, Audits and Evaluations, and Healthcare Inspections, plus a contract review
office and a support element. FY 2010 funding for OIG operations provides $109 million from ongoing
appropriations. The Office of Contract Review, with 25 employees, receives $3.9 million through
a reimbursable agreement with VA for contract review services including preaward and postaward
contract reviews and other pricing reviews of Federal Supply Schedule (FSS) contracts. In addition to
the Washington, DC, headquarters, OIG has field offices located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA
programs and the opportunities for improvement. In doing so, OIG staff strives to be leaders and
innovators, and to perform their duties fairly, honestly, and with the highest professional integrity. For
more information, please visit the OIG Internet home page at www.va.gov/oig.



                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
5|
                                                                           Issue 63 | October 1, 2009 — March 31, 2010
                         VA and OIG Mission, Organization, and Resources
�




                �
OIG Field Offices Map





                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
            6|
                                                         Issue 63 | October 1, 2009 — March 31, 2010
Office of Healthcare Inspections

The health care that VHA provides Veterans is consistently ranked among the best in the Nation,
whether those Veterans are recently returned from Operation Enduring Freedom/Operation Iraqi
Freedom (OEF/OIF) or are Veterans of other periods of service with different patterns of health care
needs. OIG oversight helps VHA maintain a fully functional program that ensures high-quality patient
care and safety, and safeguards against the occurrence of adverse events. The OIG Office of
Healthcare Inspections focuses on quality of care issues in VHA and assesses medical outcomes.
During this reporting period, OIG published 3 national healthcare inspections; 23 Hotline healthcare
inspections; 22 Combined Assessment Program (CAP) reviews; and 2 Community Based Outpatient
Clinic (CBOC) reports, covering 15 facilities, to evaluate the quality of care.

Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to
Veterans. CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to
review selected clinical and administrative operations and to conduct fraud and integrity awareness
briefings. During this reporting period, OIG issued 22 CAP reports, which are listed in Appendix A.
Topics reviewed in a facility CAP may vary based on the facility’s mission. Topics generally run for
6–12 months; the CAP topics in current use since January 2010 are:

            • Coordination of care.                       • Physician credentialing and privileging.
            • Environment of care.                        • Quality management.
            • Magnetic resonance imaging safety.          • Reusable medical equipment.
            • Medication management.                      • Suicide prevention safety plans.

When findings warrant more global attention, summary or “roll up” reports are prepared at the
conclusion of a topic’s use.

Quality Management Deficiencies Continue at Marion VA Medical Center
OIG performed a CAP review of the Marion, IL, VA Medical Center (VAMC) to follow up on findings
from three previous reports. OIG noted that several corrective actions initiated in response to
a January 2008 OIG report had not been fully implemented and did not consistently correct the
conditions identified. Specifically, the VAMC did not have a comprehensive and effective Quality
Management (QM) program that adequately monitored patient care activities and coordinated
improvement efforts. The oversight reporting structure for QM reviews was fragmented and
inconsistent, and accountability for quality monitoring and performance improvement activities
appeared limited. These deficiencies, coupled with a lack of accurate data, seriously hindered
managers’ abilities to make reasonable, data-driven decisions and to respond to QM results. OIG
made recommendations to ensure compliance with VHA policies and other external standards
regarding QM, and in Physician Credentialing and Privileging, Environment of Care, and Medication
Management.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       |7
Issue 63 | October 1, 2009 — March 31, 2010
                                              Office of Healthcare Inspections

Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review
of VHA CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated in
a manner that provides Veterans with consistent, safe, high-quality health care in accordance with
VA policies and procedures. The CBOC inspection process consists of four components: CBOC
site-specific information gathering and review, medical record reviews for determining compliance
with VHA performance measures, onsite inspections, and CBOC contract review. The objectives
of the reviews are to determine: (1) whether CBOC quality of care measures are comparable to the
parent facility clinics, (2) whether CBOC providers are appropriately credentialed and privileged in
accordance with VHA policy, (3) whether CBOCs maintain the same standard of care as their parent
facility to address the Mental Health (MH) needs of OEF/OIF era Veterans, (4) whether CBOCs are in
compliance with standards of operations according to VHA policy in the areas of environmental safety
and emergency management planning, (5) the effect of CBOCs on Veterans’ perception of care, and
(6) whether CBOC contracts were administered in accordance with contract terms and conditions.

During this reporting period, OIG performed 15 CBOC reviews throughout four Veterans Integrated
Service Networks (VISNs). These reviews were captured in two reports. We made recommendations
for improvements at the following facilities:

•		 VISN 7: Albany and Macon, GA
•		 VISN 12: Beaver Dam, WI, and Rockford, IL
•		 VISN 16: Texarkana, AR; Kosciusko and Meridian, MS; Konawa, Lawton, and Tulsa, OK; and
    Longview, TX
•		 VISN 23: Sioux City and Waterloo, IA; Galesburg, IL; and Aberdeen, SD

National Reports
Veterans Erroneously Charged for Treatment Due to Billing System Issue
At the request of Senate Veterans’ Affairs Committee Chairman Daniel K. Akaka, OIG reviewed
allegations against the Austin Outpatient Clinic, which is part of the Central Texas Veterans Health
Care System (CTVHCS). Specifically, the complainant alleged that the facility billed Veterans who
were eligible for cost-free care for treatment related to military sexual trauma (MST). The review found
that the billing system may not automatically cancel copayment charges for MST-related treatments
in all instances. OIG also found that erroneous copayments for MST-related care have resulted from
staff changing patients’ copayment status from “not required to make a copayment” to “copayment
required.” When manual edits are made to create a copayment bill, proper controls must be in place
to ensure that staff consider MST and any other conditions that entitle Veterans to cost-free care.
CTVHCS has cancelled all erroneous charges and refunded payments received from Veterans.

VHA Needs to Improve Compliance with Pharmacy Regulations and Guidance
OIG completed an evaluation of select pharmacy processes related to the management of
controlled substances (CS) at 43 VHA medical facilities. Overall, pharmacies complied with CS
guidelines, security, and reporting requirements; however, OIG recommended that management
reinforce compliance with VHA regulations and United States Pharmacopeia guidelines. OIG also

                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
8|
                                                                        Issue 63 | October 1, 2009 — March 31, 2010
Office of Healthcare Inspections

recommended that management encourage facilities to provide guidance for clinical review of
polypharmacy in high-risk populations.

Increased Documentation of Elderly Veteran Cognitive Assessments Needed
OIG evaluated the extent to which VHA clinicians conduct assessments of elderly patients during
hospitalization and ensure post-discharge follow-up care. Reviewers evaluated records for the
presence of functional and cognitive assessments that are widely accepted as a basic level of care for
vulnerable elders. OIG found that assessments of functional status were completed for more than
97 percent of hospitalized elders and that 94 percent of them had some evidence of care within
6 weeks of hospital discharge. In contrast, less than 40 percent of patients had evidence of any
cognitive assessment during their hospitalization or in the 6 months prior to admission. OIG
recommended that the Under Secretary for Health develop and implement a plan to ensure that
vulnerable elderly Veterans admitted to VA hospitals have a documented assessment of cognitive
functioning.

Hotline Reports
Scanning Backlog, Nurse Staffing, and Communication Issues Found at Iron Mountain,
Michigan, VAMC
At the request of the House Veterans’ Affairs Committee Chairman Bob Filner, OIG conducted a
review to determine the validity of allegations regarding management decisions impacting patient
care and work environment at the Oscar G. Johnson VAMC in Iron Mountain, MI. Three of the
allegations resulted in OIG recommending that actions be taken to reduce the scanning backlog and
establish a process to assure timely entry of significant information in patients’ electronic medical
records; managers initiate a review of registered nurse staffing to ensure coverage of the emergency
department (ED) and Nursing Officer of the Day; and the VAMC Director communicates, orally and in
writing, organizational changes to all employees and that administrative supervisory lines are clearly
written and effected in official personnel actions.

Better Documentation and Assessment of MH Risks Needed at Fayetteville, Arkansas, Health
Care System
At the request of Representative Jo Ann Emerson, OIG reviewed the validity of allegations regarding
the quality of mental health care provided to a patient at the Fayetteville, AR, Health Care System
(HCS). OIG could not find evidence in the medical record documentation that the provider sufficiently
explored relevant aspects of the patient’s recent suicidal thoughts and/or further inquired about the
location of the patient’s gun. Primary Care Service did not provide the patient with a MH consult within
the required timeframe and did not facilitate further assessment of the patient’s MH when he presented
to a CBOC for unscheduled visits with MH issues. Although OIG identified these patient care issues,
given all the facts in this case, including those relating to the care provided to this patient both at VA
and at non-VA facilities, OIG cannot conclude that these deficiencies impacted the patient’s outcome.
OIG made recommendations to address the deficiencies found in this review.

Improper Reprocessing of Reusable Medical Equipment Found at San Juan HCS
OIG conducted a healthcare inspection to determine the merit of allegations made against the VA
Caribbean HCS, San Juan, Puerto Rico. OIG substantiated that endovaginal transducers were not


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        |9
Issue 63 | October 1, 2009 — March 31, 2010
                                                 Office of Healthcare Inspections
�

  properly disinfected at the Mayaguez Outpatient Clinic (OPC); leak testing was not performed on
  colonoscopes in the Operating Room or on laryngoscopes in Radiotherapy at the hospital in San Juan
  and at the Ponce OPC; the system inaccurately certified compliance on three occasions; and senior
  managers were aware of these issues and took no action to assess the risk to patients. OIG also
  learned that laryngoscopes in Radiotherapy were not properly pre-cleaned and one unit contained
  a leak. The VISN Director chartered an Administrative Investigation Board (AIB) to investigate and
  address management responsiveness. OIG recommended that a risk assessment be repeated on
  the Radiotherapy issue and that the VISN Director take appropriate administrative action on the
  recommendations from the AIB.

  Patient Record System Outage Attributed to Substandard Maintenance
  OIG reviewed allegations surrounding a Veterans Health Information Systems and Technology
  Architecture (VistA) outage within the VA North Texas HCS. The outage was caused by hard disk
  failures in conjunction with outdated storage system firmware. The review revealed that the Office of
  Information and Technology (OI&T) failed to perform a firmware upgrade that had been directed by
  the vendor 2 years prior. Additionally, a report from the vendor identified significant issues relating
  to the aging infrastructure with critical recommendations that OI&T has not addressed. Although no
  patient safety incidents were reported as a result of the VistA outage, the after action report and staff
  interviews showed the incident seriously affected patient care. OIG also confirmed the allegation that
  the Office of Risk Management and Incident Response does not manage, track, or trend risks related
  to these system outages, but only reports incidents to higher echelons within OI&T. OIG made five
  recommendations to address these issues and OI&T concurred.

  Medication, Phlebotomy Complaints Substantiated at Hines, Illinois, VA Hospital
  OIG reviewed three allegations concerning quality of care issues against a nursing unit at the Edward
  Hines, Jr. VA Hospital in Hines, IL. OIG substantiated that two nurses attempted to administer a
  medication to a patient with a documented allergy to that medication, and that a nurse failed to remove
  a tourniquet from the arm of a patient with dementia. OIG did not substantiate that a patient with
  large wounds on his buttocks was left lying in feces or that the nurse told the patient that the next
  shift should clean and dress the wounds. Although OIG substantiated two of the three allegations,
  OIG made no recommendations because inspectors concluded that management took appropriate
  administrative actions prior to OIG’s review.

  Allegations of Inadequate Vision Care Unfounded at James A. Haley VA Hospital in Tampa
  OIG conducted a review of the James A. Haley VA Hospital (JAHVAH) in Tampa, FL, after a
  complainant alleged instances of inadequate vision care, unapproved research activities, and
  improper research study management. OIG confirmed that some polytrauma and traumatic brain
  injury (TBI) outpatients did not receive complete eye examinations prior to an October 2008 VHA
  Directive requiring them; however, the care provided did not deviate from expected standards at the
  time. Additionally, staff has since mailed letters to patients asking them to follow up with JAHVAH
  and schedule an eye examination. OIG did not substantiate allegations that an occupational therapist
  provides all of the diagnostic and therapeutic eye care, that patients’ rights were being violated, or
  that some patients may have received vision restoration therapy (VRT) instead of traditional blind
  rehabilitation services that have proven benefits. OIG could not confirm or refute the allegation
  that there was political pressure to conduct a research study related to VRT. OIG made no
  recommendations.

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
10 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Healthcare Inspections

End of Life Care Allegations Unfounded at Charleston VAMC
OIG conducted an inspection in response to allegations that the Ralph H. Johnson VAMC in
Charleston, SC, provided poor care to a Veteran which contributed to his untimely death. OIG did
not substantiate that staff intentionally disregarded the Veteran’s medical power of attorney and end
of life wishes, kept him overmedicated causing a small bowel obstruction, or cared for the terminally
ill Veteran in unsanitary room conditions. OIG also did not substantiate other issues pertaining to
nursing care or that the medical record contained discrepancies and lacked documentation of the
patient at end of life. OIG made no recommendations.

Post-Operative Care Allegations Unfounded at VA Central Iowa HCS
The purpose of OIG’s review at the VA Central Iowa HCS in Knoxville was to determine the validity of
the allegations regarding the lack of post-operative care resulting in a patient’s death. A complainant
specifically alleged that the patient was denied water, laboratory studies ordered were never
performed, and there were inaccuracies in the autopsy report. OIG concluded that the laboratory
studies ordered during the course of his admission were performed. In addition, although the patient
complained of dehydration, he received oral fluids regularly with meals and during hydration rounds
on every shift. Finally, the autopsy report completed at the University of Iowa Hospital did have
some documented inaccuracies; however, the information did not impact the care provided or patient
outcomes. OIG made no recommendations.

Delay in Cancer Diagnosis Substantiated Against Milwaukee VAMC
OIG reviewed the validity of allegations regarding a delayed cancer diagnosis, treatment, and
disclosure of an adverse event to a patient treated at the Clement J. Zablocki VAMC in Milwaukee,
WI. OIG substantiated that there was a delay in cancer diagnosis and treatment, a radiologist failed
to identify a lung nodule, the primary physician failed to follow up on the lung nodule, and a second
radiologist failed to notify the primary physician. OIG also substantiated that staff initially failed to
disclose the adverse event to the patient. OIG recommended that managers conduct a formal peer
review and root cause analysis on all activities involving care of the identified patient, staff adhere to
VHA and local incident reporting and adverse event disclosure policies and procedures, and managers
consult Regional Counsel regarding disclosure to the family and explanation of rights.

Allegations Not Substantiated Against Harrisonburg, Virginia, Contracted CBOC
OIG conducted an inspection in response to allegations that the Martinsburg, WV, VAMC, through
its contracted CBOC in Harrisonburg, VA, provided incomplete physicals and omitted digital
rectal examinations (DREs) to a patient over the course of 3 years. OIG did not substantiate that
the patient’s physicals were not thorough and that DREs were not addressed. OIG made no
recommendations.

Review Finds Mental Health Safety Issues and Credentialing and Privileging Irregularities at
Pineville, Louisiana, VAMC
OIG conducted a review to determine the validity of allegations regarding MH safety issues and
credentialing and privileging (C&P) irregularities at the Alexandria VAMC in Pineville, LA. OIG
substantiated that MH inpatients were put at risk because staff did not comply with requirements for
suicide risk assessments, suicide safety plans, an interim life safety plan, and MH environmental
hazards inspections and training; there was insufficient follow up for high risk MH outpatients because


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 11
Issue 63 | October 1, 2009 — March 31, 2010
                                                 Office of Healthcare Inspections

  of deficiencies with policies and suicide-related issue brief corrective action plans; blank Professional
  Standards Board (PSB) action forms were given to Service chiefs for signature prior to PSB action;
  and some renewed licenses were attached to previous license sections in VetPro. These findings
  resulted in recommendations to the VISN and VAMC Directors.

  Patient Allegations Against Amarillo, Texas, VA HCS Unfounded
  OIG did not substantiate any allegations made against the Amarillo, TX, VA HCS. Specifically, a
  patient and his wife alleged he was entitled to have VA reimburse his air ambulance co-pay, that
  the ED and inpatient admission wait was excessive, that his Post Traumatic Stress Disorder (PTSD)
  diagnosis was not considered when assigning a roommate, and that an anti-anxiety injection left him
  incoherent for 3 days. They also alleged that his diabetes was untreated, he did not see a physician
  for 24 hours, and the ED and medical unit were filthy. Because the allegations were not substantiated,
  OIG made no recommendations.

  OIG Examines Allegations Surrounding Patient’s Death at North Chicago VAMC
  OIG examined allegations regarding the care provided to a patient who died within 24 hours of
  admission to the North Chicago, IL, VAMC. The complainant suggested that a medical trainee may
  have been inadequately supervised. OIG found the quality of care reviews conducted by the VAMC
  to be thorough. Although the review found deficiencies in the quality of care provided for this patient,
  the evidence did not demonstrate a connection with the patient’s death. OIG recommended that
  managers evaluate this case with Regional Counsel for possible disclosure to the patient’s family and
  that staff comply with the VAMC’s policy for rapid intervention in patients with deteriorating clinical
  conditions.

  Allegations Against CBOCs in Smyrna and Rome, Georgia, Unfounded
  OIG reviewed the merits of allegations that a Veteran was denied access to care at a Rome, GA,
  CBOC and whether that same Veteran was not diagnosed or treated for lip cancer at the Smyrna,
  GA, CBOC or for decreased renal function at the Rome, GA, CBOC. OIG did not substantiate that
  the Veteran was denied care or that the lip cancer or decreased renal function were not diagnosed or
  treated. OIG made no recommendations.

  Allegations Against Central Arkansas Veterans HCS Not Substantiated
  OIG did not substantiate allegations that a patient at the Central Arkansas Veterans HCS in Little
  Rock, AR, was inadequately diagnosed and treated for severe abdominal pain or that he was placed
  in a locked room where no one checked on him for over 6 hours. OIG was unable to substantiate or
  refute that someone told the patient’s wife he had been discharged but they did not know where he
  was located. To reinforce effective communication with families, the Director issued a memorandum
  while OIG was onsite. OIG made no recommendations.

  Quality of Care Allegations Examined at the Salt Lake City HCS
  OIG performed a review of the Salt Lake City, UT, HCS to determine the validity of the following
  allegations: (1) lack of collaboration, inappropriate care, and deaths; (2) unwarranted amputations;
  and (3) inappropriate management of vein patients. OIG substantiated poor collaboration between
  Interventional Radiology and Vascular Surgery for two of the four patients identified, but concluded
  that this did not directly contribute to the fatal outcomes. OIG concluded that the HCS took
  appropriate actions to review quality of care and make improvements, which included conducting

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
12 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Healthcare Inspections

institutional disclosures in two of the four cases. However, OIG recommended that one case be
referred to Regional Counsel to determine whether the HCS has an obligation to report the providers
to the National Practitioners Data Base. Since management had already addressed this issue at
the time of OIG’s review, OIG considers this recommendation closed. OIG did not substantiate the
occurrence of unwarranted amputations or inappropriate management of vein patients.

Quality of Care Issues Reviewed at Clarksburg, West Virginia, VAMC
OIG reviewed the validity of allegations of poor patient care against the Louis A. Johnson VAMC in
Clarksburg, WV. Although OIG did not substantiate all allegations, OIG concluded that there were
deficiencies in the patient’s care that warranted consideration of institutional disclosure to the family.
Managers concurred with the recommendation to review the case with Regional Counsel to determine
whether disclosure was managed appropriately.

OIG Recommends Trending, Sharing of Infection Control Data at the Huntington, West
Virginia, VAMC
OIG conducted an inspection in response to allegations that a surgeon had poor infection control
practices, a higher incidence of Methicillin Resistant Staphylococcus Aureus (MRSA), altered records
to reflect lower blood loss for a procedure, and performed surgery on a patient who developed
significant complications at the Huntington, WV, VAMC. OIG did not substantiate allegations made
against the surgeon, but did identify a lack of integration of infectious disease information between
surgical services, the National Surgical Quality Improvement Program, Infection Control, and MRSA
programs. OIG recommended that trended and analyzed infection control data be provided to key
committee members and clinical managers.

Allegations of Coding and Billing Irregularities Not Substantiated Against Kansas City,
Missouri, VAMC
OIG reviewed allegations regarding a pattern of inappropriate medical coding and billing to increase
third party insurance reimbursements at the Kansas City, MO, VAMC. The allegation purported that
the Medical Care Collection Fund Billing Department inappropriately added a Current Procedural
Terminology “modifier 59,” which indicates that a procedure or service was distinct or independent
from other services performed on the same day, to the billing records for a patient receiving “Epoetin”
injections. Approved claims including a modifier 59 will usually result in higher reimbursements.
The complainant also alleged that the Billing Department inappropriately billed for complications
attributable to the patient’s participation in a voluntary research study. OIG was unable to substantiate
the allegations and made no recommendations.

Telemetry Monitoring Problems Identified at VA Eastern Colorado HCS, Denver, Colorado
OIG performed a review of the VA Eastern Colorado HCS, Denver, CO, to determine the validity
of allegations regarding inadequate telemetry heart monitoring practices and lack of staff training
that related to two patient deaths. OIG did not substantiate the allegation that the deaths were a
result of inadequate telemetry monitoring or lack of staff training. However, OIG substantiated that
management had been informed of problems with the telemetry program prior to the patient deaths
and had not identified a clear course of action or assigned responsibility to address concerns raised.
OIG also substantiated the allegation that there were competency and training issues with medical
support assistants and registered nurses assigned to telemetry. Managers concurred with OIG’s
recommendations to evaluate the telemetry program, require that all staff complete competency

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 13
Issue 63 | October 1, 2009 — March 31, 2010
                                                Office of Healthcare Inspections

  assessments and that training be provided as needed to maintain competency, and that there be
  clinical oversight of medical support assistants.

  Allegations Not Substantiated at Wilkes-Barre, Pennsylvania, VAMC
  OIG conducted an inspection to determine the validity of allegations regarding quality of care received
  by a patient at the VAMC in Wilkes-Barre, PA. OIG did not substantiate the allegations; however,
  OIG concluded that communication and documentation could be improved. OIG recommended that
  providers improve communication with patients and family members to ensure that instructions and
  plans of care are clearly understood and that they document instructions, plans, and patient and/or
  family member understanding in the medical record.

  Patient Safety, Resource Management Issues Confirmed at Northern Indiana HCS
  OIG reviewed allegations regarding mismanagement of resources and patient safety issues at the
  Northern Indiana HCS in Fort Wayne and Marion, IN. OIG substantiated five of the allegations
  and identified other environment and maintenance issues at the Fort Wayne campus that required
  management attention. OIG recommended that actions be taken to correct the findings.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
14 |
                                                                          Issue 63 | October 1, 2009 — March 31, 2010
Office of Audits and Evaluations
�

Veterans Health Administration Reports
OIG audits and evaluations of VHA programs focus on the effectiveness of health care delivery for
Veterans. These audits and evaluations identify opportunities for enhancing management of program
operations and provide VA with constructive recommendations to improve health care delivery.

De-Obligation of Funds for Undelivered Orders Could Save $276 Million
OIG audited VHA’s “undelivered orders,” which are goods and services ordered that have not
been received. The audit determined that internal controls to identify invalid undelivered orders
need improvement. As of December 2008, VHA had about 83,000 undelivered orders valued at
approximately $6.5 billion. Approximately $276 million could be put to better use in accordance with
appropriations law if invalid orders are identified in a timely manner and funds de-obligated to be used
for other purposes. OIG recommended VHA establish procedures to ensure proper follow-up and
reconciliation of undelivered orders and ensure that all undelivered orders have end dates to allow for
follow-up and reconciliation.

Compensation & Pension Exams Need Greater Oversight To Improve Timeliness
At the request of the Chairman of the Senate Committee on Veterans’ Affairs, OIG conducted an
audit to determine if VA commits sufficient resources to provide Veterans with timely C&P medical
examinations. OIG determined that VA management has not given the C&P exam program the
attention needed to ensure it is managed effectively. The audit found limited VA Central Office
oversight regarding resource allocation, utilization, and productivity of the program. Furthermore,
collaboration between VHA and VBA on issues affecting the timely delivery of exams is not adequate.
VA currently lacks a performance standard that enables management to adequately measure whether
exam requests are completed in a timely manner. As a result, many Veterans do not receive timely
exams which can delay the delivery of disability benefits. OIG made 10 recommendations to help VA
improve oversight and timeliness.

Rate of Duplicate Payments Lower Than Average at VA Pacific Islands HCS
In another request from the Chairman of the Senate Committee on Veterans’ Affairs, OIG conducted
a review of the VA Pacific Islands HCS (PIHCS) to determine the extent and causes of improper
payments for PIHCS’ outpatient fee care program. OIG found that PIHCS improperly made duplicate
payments for 13 percent of outpatient fee claims, which resulted in overpayments of $49,571 (or less
than 1 percent of total outpatient fee expenditures). The error rate at PIHCS was significantly lower
than the national error rate identified in a previous OIG audit. Since June 2008, PIHCS managers
have provided training for fee staff on avoiding duplicate payments and notified local providers of
proper billing requirements. OIG recommended that PIHCS management initiate recovery of the
duplicate overpayments identified.


Veterans Benefits Administration Audits and Evaluations
OIG performs audits and evaluations of Veterans’ benefits programs focusing on the effectiveness
of benefits delivery to Veterans, dependents, and survivors. These audits and evaluations identify
opportunities for enhancing the management of program operations and provide VA with constructive
recommendations to improve the delivery of benefits.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 15
Issue 63 | October 1, 2009 — March 31, 2010
                                              Office of Audits and Evaluations
�

  VBA Fiduciary Program Needs Management Infrastructure Improvements
  OIG’s audit of VBA’s Fiduciary Program found that VBA lacks reasonable assurance that VA-derived
  income and estates of incompetent beneficiaries are used solely for their care, support, welfare, and
  needs. In FY 2010, the Fiduciary Program will administer approximately $696 million in benefits
  payments to more than 102,000 beneficiaries, with a cumulative estate value of $3.1 billion. The
  Fiduciary Program does not consistently pursue delinquent fiduciary accountings and follow up on
  potential misuse of beneficiary funds. VBA lacks elements of an effective management infrastructure
  to monitor program performance, effectively utilize staff, and oversee fiduciary activities. As a result,
  VA Regional Offices (VAROs) are not consistently taking timely or effective actions to ensure VA-
  derived income and estates of incompetent beneficiaries are protected. VBA needs to improve the
  management infrastructure to direct the Fiduciary Program nationwide more effectively. In addition,
  VBA needs to develop and disseminate policies and procedures to improve the effectiveness of
  analyzing annual accountings filed by fiduciaries and investigating and reporting allegations of misuse
  of beneficiary funds.

  Veterans Benefits Administration Benefits Inspections
  The Benefits Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely
  and accurate benefits and services. These independent inspections provide recurring oversight of
  VAROs, focusing on disability compensation claims processing and performance of Veteran Service
  Center operations. The objectives are to evaluate how well VAROs are accomplishing their mission of
  providing Veterans with convenient access to high quality benefits services; determine if management
  controls ensure compliance with VA regulations and policies; assist management in achieving program
  goals; minimize the risk of fraud, waste, and other abuses; and identify and report systemic trends
  in VARO operations. Benefits Inspections may also examine issues or allegations referred by VA
  employees, members of Congress, or other stakeholders.

  The Benefits Inspection Division issued six reports during this reporting period. Key summary results
  from those inspections include:

  •		 Claims processing: 27 percent of benefit claims requiring a rating decision were processed in
      error. These errors involved claims related to PTSD, TBI, disabilities related to herbicide exposure,
      and temporary 100 percent evaluations.

  •		 Systematic Technical Accuracy Review (STAR) compliance: VARO staff did not correct
      38 (31 percent) of 124 errors identified by VBA’s STAR Quality Assurance Program. Of those
      errors identified, 21 (55 percent) were erroneously reported as corrected.

  •		 None of the 6 VAROs are completely following VBA policy for protecting personally identifiable
      information (PII). OIG work revealed 49 percent of all workstations inspected contained beneficiary
      PII in unauthorized locations. Inspections have not discovered any instance of shredding of
      documents. However, at 2 VAROs, we discovered claims related information improperly scheduled
      for destruction.

  •		 Inspection results show 1 percent of claims had a date recorded in the Veteran’s electronic record
      that was different from the date stamped on the corresponding paper file.


                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
16 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Audits and Evaluations
�

American Recovery and Reinvestment Act of 2009 Reports
OIG Assesses VBA Hiring Initiative and New Hire Productivity
OIG conducted a review to assess VBA’s efforts to meet its hiring goals and the impact of VBA’s
increased workforce on C&P claims workload. Between FYs 2007 and 2009, VA received $335 million
from congressional appropriations and American Recovery and Reinvestment Act of 2009 (ARRA)
funds to hire about 2,300 C&P claims processors. VBA met its FY 2008 hiring goals and filled almost
all of its ARRA-funded positions in FY 2009. However, VBA’s rating and non-rating claims inventory is
expected to continue to grow in FYs 2010 and 2011. OIG recommended that VBA collect information
related to local VARO performance measures and overtime hours worked so that VBA can accurately
determine its workforce capacity and future workforce needs. OIG also recommended that VBA issue
guidance to VAROs requiring that temporarily promoted supervisors complete a standardized core
curriculum of supervisory training.

VA ARRA Reporting Processes Meet Data Quality Requirements
OIG reviewed VA’s process for meeting the reporting requirements related to the awarding and use
of funds provided to VA through the enactment of ARRA. Specifically, OIG assessed whether VA
established a process to perform limited data quality reviews intended to identify material omissions
or significant reporting errors and to notify the recipients of the need to make appropriate and
timely changes. VA’s Office of Finance developed a data quality review plan that meets Office
of Management and Budget (OMB) requirements, as well as a checklist to be used by reviewers
to ensure the completeness and accuracy of recipient data. OIG made no recommendations
but suggested ways VA could enhance the data quality review process. VA agreed with OIG’s
suggestions and plans to incorporate these changes after performing a complete evaluation of the
plan.

Strengthened Oversight Needed for ARRA Contract Award Monitoring
OIG reviewed the effectiveness of the VHA ARRA non-recurring maintenance (NRM) contract
award monitoring processes. OIG found that improved ARRA NRM oversight would ensure that
VHA contract awards met the ARRA’s requirements and accountability, efficiency, and transparency
objectives. During the initial implementation of the ARRA, contracting officers did not properly
publicize and prepare NRM contract solicitations and awards. OIG made four recommendations to
strengthen oversight for ARRA NRM contract awards.

Other Reviews
VA Receives Unqualified Opinion on Consolidated Financial Statements
OIG contracted with the independent public accounting firm, Deloitte & Touche LLP (Deloitte), to
perform the audit of VA’s FY 2009 and 2008 consolidated financial statements. Deloitte provided
an unqualified opinion on those statements and reported four material weaknesses. Three of the
four material weaknesses are repeat conditions from the prior year audit and identified as financial
management system functionality, information technology security controls, and financial management
oversight. The fourth material weakness, compensation, pension, and burial liabilities, was identified
during the FY 2009 audit. Deloitte reported that VA is not in substantial compliance with the Federal
Financial Management Improvement Act (FFMIA) of 1996 because VA did not substantially comply

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 17
Issue 63 | October 1, 2009 — March 31, 2010
                                            Office of Audits and Evaluations

  with Federal financial management systems requirements. Deloitte also identified four other instances
  of non-compliance with law, including a violation of the Antideficiency Act.

  VA’s Compliance with Federal Information Security Management Act Evaluated
  OIG also contracted with Deloitte to perform an audit of VA’s information security program in
  accordance with the Federal Information Security and Management Act (FISMA). The results of
  this annual review of the agency’s information security program are reported to OMB. OMB uses
  this data to assist in its oversight responsibilities and to prepare an annual report to Congress on
  agency compliance with FISMA. VA continues to face significant challenges in complying with the
  requirements of FISMA due to the nature and maturity of its information security program. The report
  provides a total of 40 recommendations for improving VA’s information security program, including
  recommendations still open from prior years’ assessments.




                                                                            VA O f f i c e o f I n s p e c t o r G e n e r a l
18 |
                                                                        Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Veterans Health Administration Investigations
The OIG Office of Investigations conducts criminal investigations into allegations of patient abuse, drug
diversion, theft of VA pharmaceuticals or medical equipment, false claims for health care benefits, and
other frauds relating to the delivery of health care to millions of Veterans. In the area of health care
delivery, OIG opened 177 cases, made 130 arrests, and obtained over $2.3 million in fines, restitution,
penalties, and civil judgments as well as savings, efficiencies, cost avoidance, and recoveries.

During this reporting period, the OIG opened 62 investigations regarding diversion of controlled
substances. Subjects of these investigations included VA employees, Veterans, and private citizens.
Forty defendants were charged with various crimes relating to drug diversion. OIG also initiated
18 investigations regarding fraudulent receipt of health benefits. Nine defendants were charged with
various crimes relating to the fraudulent receipt of health benefits and court ordered payment of fines,
restitution, and penalties amounted to $96,301.

Former Lexington, Kentucky, VAMC Nurse Indicted for Murder
A former Lexington, KY, VAMC registered nurse was indicted by a Federal grand jury and
subsequently arrested for the murder of a patient. T
                                                   	 he investigation by OIG and a county coroner’s
                                                   office revealed that the Veteran died from lethal
                                                   levels of morphine.

                                                     Former Martinsburg, West Virginia, VAMC
                                                     Employee Sentenced for Fraud
                                                     A former Martinsburg, WV, VAMC nursing assistant
                                                     was sentenced to 30 months’ incarceration,
                                                     36 months’ probation, and ordered to pay
                                                     $56,165 in restitution after pleading guilty to the
                                                     unauthorized use of an access device. An OIG
                                                     and VA Police investigation determined that the
                                                     defendant used the debit cards of two inpatients to
                                                     obtain money, goods, and services.

                                                     Veterans Indicted for Travel Benefits Fraud at
                                                     Albuquerque VAMC
                                                     Eleven Veterans were indicted for submitting
                                                     fraudulent vouchers for reimbursement of travel
                                                     expenses related to attending their medical
                                                     appointments at the Albuquerque, NM, VAMC.
                                                     The cash reimbursement was calculated on a
                                                     mileage basis and the defendants claimed they
                                                     were commuting several hundred miles per day,
                                                     several days per week. The OIG investigation
                                                     determined that the defendants were actually
                                                     residing a few miles from the VAMC. The loss to
                                                     VA is approximately $110,000.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 19
Issue 63 | October 1, 2009 — March 31, 2010
                                                                Office of Investigations
�

  Veteran’s Wife Sentenced for Poisoning Veteran
  The wife of a Veteran was sentenced to 30 months’ incarceration, 3 years’ supervised release, and
  was ordered to pay a $1,000 fine after pleading guilty to poisoning her husband while he was an
  inpatient at the Temple, TX, VAMC. The Veteran survived the poisoning. A joint OIG, Federal Bureau
  of Investigation (FBI), and VA Police investigation revealed that the defendant introduced various toxic
  substances into her husband’s beverages over a period of approximately 5 weeks, causing him to
  repeatedly lose consciousness and require multiple hospital admissions. Video surveillance of the
  Veteran’s hospital room revealed that the defendant continued to poison her husband even after he
  was admitted to the facility for treatment of previous poisonings committed outside the facility.

  Former Hines, Illinois, VA Employee Arrested for Sexual Assault
  A former Hines, IL, VA employee was arrested and charged with two felony counts of sexual assault.
  During an OIG and local police investigation, the defendant admitted in a signed, sworn statement that
  he had inappropriate sexual contact with his 13 year-old daughter while she visited him at his VAMC
  onsite residence. The defendant subsequently resigned from his position with VA.

  Atlanta VAMC Physician Indicted for Abusive Sexual Contact and Assault
  An Atlanta, GA, VAMC physician was indicted for abusive sexual contact, assault, and false
  statements. An OIG investigation revealed that a female patient was examined at the VAMC without
  another staff member in the room and was sexually assaulted by the physician. The investigation also
  revealed that a VAMC nurse was asked by the defendant to provide false statements to reflect that the
  nurse was present in the room during the examination.

  Former Postal Employee Arrested for Drug Theft
  A multi-agency investigation resulted in the arrest of a former U.S. Postal Service employee suspected
  of diverting more than 2,000 tablets of VA medication from the mail. The defendant subsequently
  admitted to selling the stolen VA medication. The defendant was charged with trafficking opium/
  heroin, maintaining a dwelling house for the keeping or selling of controlled substances, and 153 other
  criminal violations. The defendant was held under a $1,615,000 secured bond.

  Former Jackson, Mississippi, VAMC Nurse Sentenced for Drug Diversion
  A former Jackson, MS, VAMC nurse was sentenced to 2 months’ house arrest and 3 years’ probation
  after pleading guilty to possession of a controlled substance. An OIG investigation disclosed that the
  defendant diverted at least 120 Schedule II and III pain narcotics from the medical center for personal
  use. The nurse obtained the diverted narcotics by falsifying VA physician orders.

  Former Postal Employee Arrested for Theft of VA Drugs
  A former U.S. Postal Service employee was arrested after being indicted for theft of mail. An OIG and
  Postal Service OIG investigation revealed that while the carrier was delivering mail on her route, she
  unlawfully opened a test package containing VA drugs addressed to a non-existent address as well as
  envelopes containing marked cash. The investigation also revealed that the mail carrier received cash
  for stealing VA drugs and providing them to another person who in turn sold the drugs on the street.




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
20 |
                                                                           Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Palo Alto, California, Nursing Instructor Sentenced for Diversion of VA Drugs
A community college clinical nursing instructor teaching at the Palo Alto, CA, VAMC was sentenced to
3 years’ probation after pleading guilty to possession of a controlled substance. An OIG investigation
determined that the nurse diverted hydromorphone on at least four different occasions after she
fraudulently obtained access to a VAMC Accudose machine.

Former Albuquerque VAMC Nurse Pleads Guilty to Drug Diversion
A former Albuquerque, NM, VAMC nurse pled guilty to drug diversion charges. An OIG investigation
disclosed that the defendant used the Acudose system to access oxycodone and other controlled
substances for personal use. The defendant attempted to conceal the diversion activity by associating
the oxycodone to certain patients, many of whom had no standing order to receive that particular
medication.

Tampa Nurse Arrested for Drug Diversion
A Tampa, FL, VAMC registered nurse was arrested for unauthorized possession of controlled
substances and petit theft. An OIG and VA Police investigation revealed that the defendant diverted
several pharmaceutical drugs, mainly hydromorphone and Percocet, by removing the drug from
syringes located in a Pyxis machine or by giving patients only a portion of the drugs prescribed to
them.

Brockton, Massachusetts, VAMC Employee Arrested for Drug Theft
A Brockton, MA, VAMC employee was arrested for possession with intent to distribute oxycodone. An
OIG, VA Police, Drug Enforcement Administration, and local police investigation determined that since
January 2010, the defendant, who was a VA mail courier, had taken approximately 1,300 oxycodone
pills from outgoing packages being mailed to VAMC patients. The defendant opened the prescription
bottles while they remained sealed in shipping envelopes, emptied a portion of the pills, replaced the
cap on the bottle, and tore a small hole in the envelope from which the pills were removed. In most
instances, when the envelopes arrived the patients were unaware they were missing narcotics. At the
time of his arrest, the defendant had stolen narcotics in his possession, confessed to being addicted to
pain medications, and to distributing a portion of the narcotics off VA property.

Oklahoma City, Oklahoma, VAMC Nurse Pleads Guilty to Assault
An Oklahoma City, OK, VAMC nurse pled guilty to assault and concealment of a material fact. When
initially interviewed by OIG agents, the nurse denied assaulting any patient; however, a video showed
that for approximately 2 minutes the nurse assaulted an 82 year-old dementia patient. The patient did
not resist the beating and suffered a fractured right humerus bone and severe bruising and swelling in
his right arm and hand.

Two Arrested for Heroin Distribution at West Haven, Connecticut, VAMC
A VA employee and a second defendant were arrested for distributing heroin at the West Haven, CT,
VAMC. A consent search of the second defendant’s residence, who was supplying the drugs to the
employee, resulted in the seizure of 561 bundles of heroin and $9,000 in cash. An OIG, VA Police,
and local police investigation determined that the employee would place orders for heroin from the
supplier, who would deliver the heroin to the VA employee in front of the VAMC. The VA employee
would then sell the heroin to patients and staff while working at the VAMC.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                      | 21
Issue 63 | October 1, 2009 — March 31, 2010
                                                                Office of Investigations
�

  Former Syracuse VAMC Employee Sentenced for Bank Fraud
  A former Syracuse, NY, VAMC employee was sentenced to 3 years’ probation and ordered to pay
  restitution of $7,781 after pleading guilty to bank fraud. The defendant used her position at the VAMC
  to gain access to a Veteran’s bank card and personal identification number and subsequently stole
  funds from the Veteran’s account after his death.

  Brother of Veteran Pleads Guilty to Identity Theft
  The brother of a Veteran was arrested and subsequently pled guilty to a criminal information charging
  him with identity theft. The defendant fraudulently obtained a VA identification card, two credit
  cards, driver’s licenses from two different states, a social security card, and a birth certificate using
  his brother’s identity. An OIG, U.S. Secret Service, and local police investigation revealed that the
  defendant also assumed his brother’s identity in order to fraudulently receive approximately $13,275 in
  VA medical care for 10 years.

  Three VA Greater Los Angeles HCS Employees Charged With Theft
  Three Sepulveda, CA, VA employees were charged with grand theft after an OIG and VA Police
  investigation determined that the defendants fraudulently claimed overtime hours they did not work.
  The loss to VA is approximately $15,000.

  Veteran Sentenced for Identity Theft
  A Veteran was sentenced to 30 months’ incarceration, 36 months’ probation, and ordered to pay
  restitution of $43,835 after pleading guilty to theft of Government property and additional charges.
  An OIG and U.S. Postal Inspection Service investigation revealed that the defendant, who had been
  dishonorably discharged from the military, assumed the identity of an honorably discharged Veteran
  and fraudulently received VA medical treatment and benefits in both Tennessee and Washington. The
  loss to VA is $23,574.

  Birmingham, Alabama, VA Employee Arrested for Fraudulent Use of a Government Credit Card
  A Birmingham, AL, VA employee was arrested following an indictment for fraudulent use of a credit
  card. An OIG investigation revealed that the defendant misused a Government-issued U.S. Bank
  travel card over a 3-month period, accruing approximately $3,400 in charges for personal expenses
  including vacations and vehicle loan payments.

  VA Domiciliary Resident Sentenced for Identity Theft
  A Veteran was sentenced to 2 years’ suspended incarceration and 2 years’ probation after pleading
  guilty to the fraudulent use of identifying information. An OIG and VA Police investigation determined
  that the defendant had been committing identity theft while he was a VA domiciliary resident. The
  defendant used the Government-furnished phone in his room to fraudulently obtain computers, cell
  phones, credit cards, and other items by using the identities of individuals he obtained while working at
  an auto dealership.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
22 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Veterans Benefits Administration Investigations
VA administers a number of financial benefits programs for eligible Veterans and certain family
members. Among the benefits are VA guaranteed home loans, education, insurance, and monetary
benefits provided by the C&P Service. With respect to VA guaranteed loans, OIG conducts
investigations of loan origination fraud, equity skimming, and criminal conduct related to management
of foreclosed loans or properties. In the area of monetary benefits, OIG opened 198 cases, made
92 arrests, and had over $15.1 million in fines, restitution, penalties, and civil judgments as well as
savings, efficiencies, cost avoidance, and recoveries.

C&P investigations routinely concentrate on payments being made to ineligible individuals. For
example, a beneficiary may feign a medical disability to deliberately defraud the VA compensation
program. The VA pension program, which is based on the beneficiary’s income, is often defrauded by
individuals who fail to report income in order to stay below the eligibility threshold for these benefits.
An ongoing proactive income verification match identifies possible fraud in the pension program.
OIG also conducts an ongoing death match project that identifies deceased beneficiaries of the VA
C&P program whose benefits continue because VA was not notified of the death. Generally, family
members of the deceased are responsible for this type of fraud. In this reporting period, the death
match project recovered $3.13 million. Since the inception of this project in 2000, OIG investigations
have resulted in recoveries of $42.9 million, with an additional $17.8 million in anticipated recoveries.
The 5-year cost avoidance for this project is estimated to be $116.5 million. Thus far, OIG agents have
made 409 arrests, with several other cases awaiting judicial action.

During this reporting period, OIG opened 182 investigations regarding death match cases, fiduciary
fraud, identity theft, and Veterans/widows fraudulently receiving VA compensation and pension
funds. Ninety defendants were charged with crimes and court ordered payment of fines, restitution,
and penalties amounted to over $12.6 million. These investigations include 13 “Stolen Valor” cases
resulting in 8 defendants being charged and $82,360 in court ordered payment of fines, restitution, and
penalties.

Fiduciary Sentenced for Embezzlement
A fiduciary was sentenced to 55 months’ incarceration after pleading guilty to making a false
statement to VA in an effort to conceal her embezzlement of Veterans’ funds. A joint Federal and
state investigation determined that the defendant had embezzled nearly $1 million from 33 disabled
Veterans while acting as their appointed fiduciary. The defendant admitted to taking funds from the
Veterans’ bank accounts to support her gambling habit as well as to submitting false accountings to
VA. The defendant agreed to make restitution to VA, the Social Security Administration (SSA), and a
bonding company that reimbursed the Veterans for their losses.

Incarcerated Veteran Sentenced for Theft of VA Benefits
A Veteran was sentenced to 9 months’ incarceration and ordered to pay restitution after pleading
guilty to the fraudulent acceptance of Veterans’ benefit payments. The term of incarceration is to run
concurrently to the Veteran’s current incarceration on unrelated state charges. An OIG investigation
determined that the Veteran failed to report to VA that he had been incarcerated in a state prison since
May 2000. The Veteran continued to receive disability compensation benefits at the 100 percent rate,
while only entitled to compensation at the incarcerated Veteran rate of 10 percent. The Veteran’s


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 23
Issue 63 | October 1, 2009 — March 31, 2010
                                                                Office of Investigations

  10 percent rate will be further reduced and applied to his court ordered restitution. The loss to VA is
  $126,614.

  VA Employee Indicted for Stolen Valor
  A VA employee was indicted for stolen valor fraud and theft of Government funds after an OIG
  investigation revealed that he submitted counterfeit documents and false statements to the U.S. Air
  Force indicating he was wounded while serving in Vietnam. Based upon the counterfeit documents
  and false statements, the U.S. Air Force awarded the employee a Purple Heart. The employee used
  the fraudulently obtained Purple Heart and a self-inflicted gunshot wound, received 20 years after his
  military service, to obtain compensation benefits from VA. The loss to VA is approximately $200,000.




  Veteran Indicted for Stolen Valor
  A Veteran was arrested after being indicted for theft of Government funds. An OIG investigation
  determined that the defendant submitted a fraudulent Purple Heart certificate to VA in order to support
  his claim for VA compensation benefits. The loss to VA is approximately $24,000.

  Veteran Convicted of Stolen Valor Fraud
  A Veteran was convicted at trial for making a false claim of being awarded the Medal of Honor and
  making a false statement. An OIG investigation revealed that the Veteran falsely represented that he
  had been awarded the Medal of Honor, in violation of the Stolen Valor Act, and fraudulently provided
  false information to a VARO in an attempt to increase his VA benefit payments.

  Veteran Pleads Guilty To Fraudulently Obtaining VA Benefits
  After 2 days of trial, a Veteran pled guilty to conspiring with a former Disabled American Veterans
  (DAV) service officer and a former VA employee to fraudulently obtain VA benefits. The defendant
  also pled guilty to structuring financial transactions to avoid reporting requirements in order to
  conceal the conspiracy. An investigation by OIG and the FBI revealed that the Veteran, a pilot for
  a commercial airline carrier, enlisted the assistance of a DAV service officer and a VA employee
  to receive a disability rating of 100 percent service connection by inserting a fabricated medical
  examination into his claims file and removing all hearing exams from military service to ensure his

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
24 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

claim for hearing loss was approved. In exchange for getting the claim approved, the Veteran paid
the DAV service officer and the VA employee each one-third of his $93,240 retroactive benefit check.
Both the DAV officer and VA employee have pled guilty to their part of the scheme and are awaiting
sentencing.

Sister of Deceased Veteran Sentenced for Theft of VA Funds
The sister of a deceased Veteran was sentenced to 36 months’ probation and ordered to pay $125,245
in restitution after pleading guilty to theft of Government funds. An OIG investigation determined that
the defendant stole VA benefits that were direct deposited into a joint account after her brother’s death
in 2002.

Veteran Sentenced for Wire Fraud and False Statements
A Veteran was sentenced to 15 months’ incarceration, 24 months’ probation, and ordered to pay
$950,000 in restitution after pleading guilty to wire fraud and false statements. An OIG investigation
revealed that between April 1976 and October 2007, the Veteran feigned symptoms and exaggerated
his injuries to include paraplegia and complete loss of lower bodily functions requiring daily aid and
attendance, constant medical care, clothing reimbursement, and adaptive housing and transportation.
It was discovered that during this 31-year period, the Veteran owned an excavation company and
operated heavy construction equipment, owned and operated a Federal Aviation Administration repair
station and was the chief inspector and airframe power plant mechanic, obtained a private pilot’s
license without physical restrictions, and was a law enforcement officer in a county sheriff’s office.
During a VA C&P examination, the Veteran wheeled himself into the VAMC claiming to be a 31-year
paraplegic with complete loss of bodily function below the waist, yet walked unassisted into U.S.
District Court the following day on unrelated criminal charges.

Multi-Agency Investigation Results in Wire Fraud Sentencing
A defendant was sentenced concurrently to 60 months and 78 months’ incarceration for wire fraud
and conspiracy to commit theft of Government funds. The defendant was also sentenced to 3 years’
probation and ordered to pay $92,390 in restitution. A multi-agency, 6-year investigation revealed
that the defendant was behind a large criminal enterprise responsible for over $700,000 in fraudulent
activity. The investigation disclosed that the defendant and her co-conspirators fraudulently diverted
Government retirement funds by stealing the identities of recently deceased Federal retirees, many of
whom were Veterans. The investigation identified that the co-conspirators participated in the diversion
of Government funds, including VA benefits, and stole identities while establishing mail drops at
commercial mail facilities. After obtaining control of the retirement accounts, the defendant diverted
the funds from the deceased retirees’ accounts to other bank accounts in Mexico and the New
Orleans area.

Defendant Sentenced for Identity Theft
A defendant was sentenced to 25 months’ incarceration, 36 months’ probation, and ordered to pay
restitution of $29,262 after pleading guilty to theft of Government funds and aggravated identity theft.
An OIG investigation determined that the defendant assumed the identity of a disabled Veteran and
redirected over $34,000 in VA benefits to another bank account in order to steal the funds.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 25
Issue 63 | October 1, 2009 — March 31, 2010
                                                               Office of Investigations
�

  Veteran’s Daughter Pleads Guilty to Embezzlement
  An OIG investigation revealed that the daughter of a Veteran, who had a power of attorney for her
  father, embezzled over $100,000 of her father’s money, including his VA benefits, while her father was
  residing in a VA nursing home. Most of the embezzled funds were spent gambling at a casino. The
  daughter pled guilty to felony embezzlement.

  Veteran Arrested for Compensation Fraud
  A Veteran was arrested for making false statements and wire fraud. The Veteran was rated with a
  100 percent service-connected disability and was also collecting special monthly compensation for
  the complete loss of the use of his lower extremities. An OIG and U.S. Secret Service investigation
  determined that the defendant continuously submitted false medical claims, testimony, and requests to
  VA for over 20 years stating that he could not ambulate without assistance, when in fact the Veteran
  had full mobility. The loss to VA is $526,539.

  Veteran’s Daughter Pleads Guilty to Theft of VA Funds
  The daughter of a Veteran, who was also the wife of a state judge, pled guilty to theft of Government
  funds. An OIG investigation determined that between 2001 and 2008, the defendant fraudulently
  received VA pension benefits, on behalf of her father, based on false financial statements she made
  to VA. An OIG investigation revealed that the defendant and her three siblings created an investment
  company for the purpose of hiding their parents’ financial assets. This action then made the parents
  eligible for various Government benefit programs, to include VA. The investment company’s
  partnership agreement and company itself were created by the defendant’s husband while he was
  still in office. The defendant, who was also her father’s fiduciary, subsequently stole most of the
  fraudulently obtained VA pension benefits. The loss to VA is $110,848.

  Veteran Indicted for Fraud Involving VA Guaranteed Loans
  A Veteran was indicted for mortgage fraud, bank fraud, and identity theft relating to an extensive
  $1.6 million mortgage fraud scheme that began in 2002. An OIG, U.S. Secret Service, and FBI
  investigation determined that the defendant supplied VA with fraudulent social security numbers in
  order to qualify for VA guaranteed loans. The defendant was discharged from the U.S. Army under
  “other than honorable” conditions and would not have qualified for VA loans using his correct social
  security number. The loss to VA is approximately $56,000.

  Veteran and Mortgage Broker Indicted for Fraud
  An OIG and local law enforcement investigation resulted in the indictments of a Veteran and a
  mortgage broker. The Veteran was charged with mortgage fraud and the mortgage broker was
  charged with engaging in organized criminal activity. The investigation revealed that the Veteran
  and the mortgage broker conspired to defraud the VA Home Loan Guaranty Program by knowingly
  presenting falsified tax statements to a loan underwriter in order to purchase a home. The mortgage
  broker then used the acquired property as a primary residence without making the requisite mortgage
  payments. In June of 2009, the home was allowed to go into foreclosure, resulting in a potential
  loss of $104,193 to VA. The total dollar amount of the fraudulent transaction was determined to be
  $416,772. The Veteran received $11,741 in cash following the sale of the home, disbursed to him by a
  title company in the form of a realtor’s commission.



                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
26 |
                                                                          Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Veteran and Co-Defendants Arrested for Theft of Government Benefits
A Veteran, his wife, and his employer were arrested in connection with VA unemployability
compensation and social security fraud. The Veteran and his wife were both charged with theft of
Government funds, while the employer was charged with false statements. The Veteran was rated
with a 70 percent service-connected disability, but was collecting at the 100 percent rate due to
his claim of being unemployable as a result of his service-connected disability. An OIG, SSA OIG,
and U.S. Secret Service investigation determined that the defendant submitted false certifications
concerning his employment to both VA and SSA. The defendant’s wife previously provided false
information to OIG agents so that her husband could continue to receive VA and SSA benefits. The
wife arranged for her husband’s wages to be paid using her social security number in order to conceal
his wages from VA and SSA. The Veteran’s employer submitted false documentation stating he did
not employ the Veteran and fraudulently paid wages to the Veteran using the wife’s social security
number. The loss to VA is approximately $82,000 and the loss to SSA is approximately $48,000.

Defendants Sentenced for Theft of VA Benefits from Deceased Beneficiary
The son of a VA Dependency and Indemnity Compensation (DIC) beneficiary was sentenced to
4 months’ incarceration, credited as time served, and ordered to pay $34,892 in restitution. A co-
defendant was sentenced to 2 years’ probation and ordered to pay $5,207 in restitution. Both
defendants previously pled guilty to theft of Government funds after an OIG investigation determined
that both defendants stole, forged, and negotiated VA benefit checks issued after the beneficiary’s
death in 1994.

Mother and Daughter Indicted for Defrauding Disabled Veteran
The sister and niece of an incompetent Veteran, who was residing in a VA nursing care facility, were
indicted for felony theft and misapplication of fiduciary property in excess of $100,000. An OIG
investigation revealed that the two defendants conspired to defraud the Veteran by using a power of
attorney to misappropriate over $170,000 in VA benefits belonging to the Veteran. The investigation
revealed that the defendants convinced the Veteran that they were saving his benefits in a special
savings account. Instead, they utilized the stolen funds for personal purchases and also distributed a
portion of the funds to other family members.

Veteran Indicted for VA Pension Fraud
A Veteran was indicted and subsequently arrested for theft of Government property. An OIG
investigation revealed that for 4 years the defendant fraudulently received VA pension benefits by
failing to accurately report to VA his employment disability pension and social security earnings. The
loss to VA is $44,994.

Daughter of Deceased Veteran Pleads Guilty to Theft of VA Benefits
The daughter of a deceased VA beneficiary pled guilty to theft of Government funds. An OIG
investigation revealed that the defendant failed to report her mother’s death to VA, forged her mother’s
signature on two VA Marital Questionnaire documents, and subsequently stole VA benefit funds direct
deposited into her deceased mother’s account. The loss to VA is $68,058.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 27
Issue 63 | October 1, 2009 — March 31, 2010
                                                               Office of Investigations
�

  Defendant Pleads Guilty to Theft of Government Benefits
                              A defendant pled guilty to an indictment charging him with theft of
                              Government funds and Stolen Valor. An OIG and U.S. Coast Guard
                              Investigative Service investigation determined that the defendant
                              obtained fraudulent DD-214s early in his 20-year career with the Navy
                              and Coast Guard. The defendant represented himself as a Navy
                              Seal who received multiple medals for valor for over 10 years while
                              serving in the Coast Guard. Upon retirement, the defendant provided
                              fraudulent DD-214s to VA when applying for benefits claiming PTSD
                              and lied extensively about combat exposure during mental health
                              evaluations. The loss to VA is $13,923.

                                 Veteran Arrested for Making False Statements
                                 A Veteran was arrested for making false statements after an OIG
                                 investigation revealed that he falsified his employment status on a
                                 VA Vocational Rehabilitation and Employment application and on
                                 other subsequent forms in order to receive VA benefits. The Veteran
                                 subsequently received approximately $11,000 for college tuition,
                                 supplies, subsistence allowance, and dependency pay over a 3-year
                                 period.

                                 Veteran’s Daughter Pleads Guilty to Elder Abuse
                                 The daughter of a Veteran pled guilty to felony elder abuse. An OIG
                                 investigation determined that the defendant stole over $70,000 of
                                 her father’s VA funds and spent them on alcohol and other personal
                                 items. The defendant never informed her father that he had received a
                                 $70,000 retroactive VA benefit award check.

                                 Son of Deceased Beneficiary Pleads Guilty to Theft of VA
                                 Benefits
                                 The son of a deceased VA beneficiary pled guilty to an indictment
                                 charging him with theft of public money. An OIG investigation revealed
                                 that the defendant submitted false financial status reports to VA,
                                 resulting in the continuation of benefits to his deceased mother. The
                                 defendant subsequently stole the VA funds that were direct deposited
                                 to his mother’s account after her death in April 1987. The loss to VA is
                                 approximately $204,000.

  Common-Law Wife Pleads Guilty to Theft of VA Benefits
  The common-law wife of a deceased Veteran pled guilty to theft of Government funds. An OIG
  investigation determined that the defendant failed to report her remarriage to VA and continued to
  fraudulently receive DIC benefits. The loss to VA is $73,064.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
28 |
                                                                          Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Veteran Sentenced for VA Education Fraud
A Veteran was sentenced to 48 months’ probation and ordered to pay $20,920 in restitution after
pleading guilty to theft of Government funds. An OIG investigation determined that the defendant
fraudulently received VA education benefits from March 2004 to July 2007. The defendant submitted
forged VA monthly certifications reporting that he was attending school when, in fact, he failed to
attend classes.

Veteran Indicted for VA Compensation Fraud
A Veteran was indicted for health care fraud, false statements relating to health care matters, being
a felon in possession of a firearm, and making a false statement during the purchase of a firearm.
An OIG and a Bureau of Alcohol, Tobacco, Firearms, and Explosives investigation determined that
for over 20 years the defendant falsely represented to VA that he had extreme loss of vision in both
eyes. This claim allowed the Veteran to receive disability compensation at the 100 percent rate. The
investigation further determined that the defendant drove, read, hunted, and performed numerous
activities that would not be possible with his purported vision loss. The loss to VA is approximately
$804,500.

Son of Deceased Beneficiary Pleads Guilty to Forgery
The son of a deceased VA beneficiary pled guilty to forgery. An OIG investigation revealed that the
defendant failed to report his mother’s death to VA, forged his mother’s signature on two VA Marital
Questionnaire documents, and stole, forged, and negotiated 221 VA benefit checks over a period of
approximately 19 years. The loss to VA is $191,669.




Remarried Widow Sentenced for Compensation Fraud
The widow of a Veteran was sentenced to 3 months’ incarceration, 180 days in a halfway house,
36 months’ supervised release, and ordered to pay $147,558 in restitution. An OIG investigation
determined that the defendant had remarried more than 14 years ago and falsely certified to VA
that she was unmarried in order to continue to receive a DIC benefit. During the investigation, the
defendant obtained an annulment from her current husband in an effort to continue to receive benefits.
After the annulment was granted, she continued to live with her ex-husband as a married couple.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 29
Issue 63 | October 1, 2009 — March 31, 2010
                                                                 Office of Investigations

  Veteran Sentenced for Theft of Government Benefits
  A Veteran was sentenced to 3 years’ probation and ordered to pay restitution of $105,528 after
  pleading guilty to making fraudulent statements to agencies of the United States. The defendant
  received disability benefits from VA and SSA based on his claim of being unable to walk. An OIG and
  SSA OIG investigation revealed that the defendant was a licensed commercial truck driver, having
  passed Department of Transportation physicals requiring full mobility, during the same time period
  he was in receipt of disability benefits. While working, the defendant used his son’s name and social
  security number to hide his income.

  Veteran’s Daughter Sentenced for Theft of VA Benefits
  The daughter of a Veteran was sentenced to 180 days’ incarceration, 3 years’ probation, and ordered
  to pay restitution of $70,695. The defendant admitted that she spent her father’s VA disability benefits
  on alcohol, hotel rooms, and other personal items. The Veteran, a double leg amputee, was in the
  process of being evicted from his nursing home for not paying his rent.

  Veteran Pleads Guilty to Theft of Benefits
  A Veteran pled guilty to theft of Government funds after an OIG investigation revealed that he
  fraudulently received over $50,470 in VA disability pension benefits from September 2003 to
  September 2007. The Veteran failed to report that he had returned to work as a truck driver and did
  not accurately report his income and earnings to VA.


  Other Investigations
  OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false
  claims submitted by contractors, and other fraud relating to VA procurement activities. In the area
  of procurement practices, OIG opened 12 cases, made 8 arrests, and had over $41.6 million in
  fines, restitution, penalties, and civil judgments as well as savings, efficiencies, cost avoidance, and
  recoveries.

  OIG also investigates theft of Information Technology (IT) equipment or data, network intrusions,
  identity theft, and child pornography. In the area of information management crimes, OIG made
  4 arrests, and had $37,158 in fines, restitution, penalties, and civil judgments as well as savings,
  efficiencies, cost avoidance, and recoveries.

  Veteran Arrested for Identity Theft Involving VA Benefits
  A Veteran was arrested and charged with theft of Government funds. The defendant, who was rated
  ineligible to receive VA benefits, stole the identity of his honorably discharged brother in order to
  receive VA pension payments and medical care. The defendant admitted to posing as his brother
  in order to receive VA benefits since 1984. The brother, who died in 2006, had never applied for VA
  pension or medical care. The loss to VA is approximately $200,000.

  Veteran Sentenced for Theft of Government Funds
  A Veteran was sentenced to 180 days’ home confinement, 3 years’ supervised release, and a $10,000
  fine. Prior to the sentencing, the Veteran paid full restitution of $137,704. This sentencing was
  based on a VA OIG, Office of Personnel Management (OPM) OIG, and Federal Deposit Insurance

                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
30 |
                                                                             Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Corporation OIG investigation that determined the Veteran had submitted forged documents to the
Government, including a fraudulent DD-214 and a forged letter on VA letterhead, which purported that
he had 11 years of active duty service. In actuality, he served only 4 months during basic training in
the U.S. Army Reserve. The false claim fraudulently raised the Veteran’s creditable civilian service to
over 25 years and resulted in the illicit receipt of $137,704 in OPM retirement benefits.

Employee Sentenced for Possession of Child Pornography
A researcher at the Memphis, TN, VAMC, who was working as a research specialist under a VA grant
program, was sentenced to 12 years’ incarceration and 5 years’ probation after pleading guilty to
the receipt, possession, and transmission of child pornography. An OIG, Immigration and Customs
Enforcement, FBI, and VA Police investigation determined that the defendant accessed and used VA
computer systems to obtain and transmit child pornography.

Veteran Sentenced for Possession of Child Pornography at Miami VAMC
A Veteran was sentenced to 58 months’ incarceration after pleading guilty to possession of child
pornography. An OIG investigation revealed that the Veteran used a VA computer located in the
Miami, FL, VAMC medical library to download material depicting children and adults engaged in sexual
acts. The investigation also revealed that the defendant actively stalked young girls and wrote on his
e-mail account profile about his desire to molest these girls.

Chief Executive Officer Sentenced for Making False Statements
The Chief Executive Officer (CEO) of a biotechnology company was sentenced to 8 months’
incarceration, 3 years’ probation, a $77,228 fine, and ordered to pay restitution of $22,772 after
pleading guilty to making false statements. The CEO also pled guilty on behalf of his company to
making false statements. The company was subsequently sentenced to a $20,000 fine. A multi-
agency investigation revealed that from 2001 to 2002, the CEO authorized the alteration of data
related to the purity of chemical compounds manufactured by the company and sold to VA and other
Federal agencies.

Defendant Pleads Guilty to Health Care Fraud
A former account manager with a company that provided home health care services to patients
covered by various health care programs, including Medicaid and VA, pled guilty to a criminal
information charging him with knowingly and willfully defrauding a health care program. An OIG,
Health and Human Services OIG, and FBI investigation determined that the defendant altered
employee documents to make them appear compliant with State licensing regulations during audits of
the company’s operations.

Former Bay Pines, Florida, Employee Indicted for Child Pornography Possession
A former Bay Pines, FL, VAMC employee was indicted for possession of child pornography after an
OIG and FBI investigation revealed that the defendant used his VAMC network folder to store images
of child pornography.

Former Executive Pleads Guilty to Conspiracy and Money Laundering
The former CEO of a nursing home chain that received Federal funds pled guilty to conspiracy to
commit wire fraud and money laundering. A multiagency investigation determined that the defendant


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                      | 31
Issue 63 | October 1, 2009 — March 31, 2010
                                                                  Office of Investigations

  conspired to create false invoices in order to obtain loans from lenders. The loans were intended
  for the improvement of the nursing home facilities but instead were used to pay for the CEO’s
  personal expenses, including the purchase of a number of apartment complexes. As part of the plea
  agreement, the CEO agreed to forfeit $500,000 to the Government in the form of a lien placed on one
  of the complexes. In addition to the CEO, a former director of cash management, a nursing home
  administrator, and a regional accounts receivable manager were also previously convicted as a result
  of this investigation and are currently awaiting sentencing.

  Deceased Veteran’s Ex-Wife Sentenced for Misappropriation
  The ex-wife of a deceased Veteran was sentenced to 3 years’ incarceration, 3 years’ probation, and
  ordered to pay restitution of $362,644 after pleading guilty to misappropriation by a fiduciary. A joint
  investigation conducted by OIG, FBI, and the Defense Criminal Investigative Service revealed that at
  the time of the Veteran’s death, he had named his minor son as the sole beneficiary for his military
  life insurance. The Veteran’s ex-wife obtained court appointed guardianship over the life insurance
  funds, totaling approximately $450,000, in order for VA to pay the son. The investigation further
  determined that in less than 1 year, the defendant embezzled almost all of the funds, spending them
  on extravagant vacations, gambling, cars, and parties.




  Administrative Investigations
  OIG’s Administrative Investigations Division independently reviews allegations and conducts
  administrative investigations generally concerning high-ranking senior officials and other high profile
  matters of interest to the Congress and the Department. During this reporting period, OIG issued two
  administrative investigations resulting in $48,913 in fines, restitution, penalties, and civil judgments as
  well as savings, efficiencies, cost avoidance, and recoveries.


                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
32 |
                                                                             Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

Administrative Investigation Substantiates Improper Behavior by VA Official
An administrative investigation substantiated that a National Programs & Special Events senior official
misused official time and travel, failed to properly record compensatory time for her subordinates,
improperly used hundreds of hours of unauthorized compensatory leave, interfered with an OIG
investigation, accepted gratuities from a prohibited source, and circumvented acquisition requirements.
The investigation also substantiated that a different senior official and three other VA employees made
false statements and interfered with an OIG investigation.

Doctor Collected Improper VA Pay While Performing Paid Lectures
An administrative investigation substantiated that a podiatrist, previously employed at the North
Chicago VAMC, provided non-VA related professional services for remuneration during his official
VA time. The investigation disclosed that VA improperly paid the podiatrist $22,208 for hours he was
away from his VA duty station while traveling, lecturing, and receiving payment for non-VA related
professional services. VA issued the podiatrist a bill of collection in the amount of $22,208.

Employee-Related Investigations
During this reporting period, OIG opened 25 investigations regarding criminal activities by VA
employees (not including drug diversion). The types of crimes investigated included Workers’
Compensation Fraud, theft from Veterans, and theft of VA property or funds. Twenty-nine defendants
were charged with crimes and court ordered payment of fines, restitution, and penalties amounted to
$24,912. Among them were the following:

•		 A VA OI&T employee, working in Fayetteville, NC, was
    indicted and arrested for filing false and fraudulent tax
    returns, wire fraud, and aggravated identity theft. An OIG
    and Internal Revenue Service (IRS) Criminal Investigations
    Division investigation disclosed that the employee utilized
    the PII of at least four Veterans without their knowledge to
    prepare fraudulent tax documents. The defendant used his
    position to access the Veterans’ information.

•		 A former West Haven, CT, VAMC employee, who had
    duties as a contracting officer’s technical representative,
    was sentenced to 24 months’ incarceration and 24 months’
    probation after being convicted of receiving bribes and filing
    a false tax return. A OIG, FBI, IRS Criminal Investigations
    Division, General Services Administration OIG, and VA
    Police investigation revealed the defendant received various
    payments in exchange for steering VA contracts to two
    companies formed by an attorney for the purpose of doing
    business with VA. The total value of the bribes exceeded
    $45,000. The value of the contracts awarded to the
    attorney’s two companies totaled almost $400,000, which
    included $81,000 in payments for services or supplies
    authorized by or charged directly to the defendant’s


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 33
Issue 63 | October 1, 2009 — March 31, 2010
                                                                 Office of Investigations

       Government credit card. The defendant also admitted to filing a false income tax return when he
       failed to report the illegal payments. The attorney was previously sentenced in this case.

  •		 A former Philadelphia VAMC employee was sentenced to time served and 9 years’ probation and a
      second former employee was sentenced to 7 years’ probation. The two defendants previously pled
      guilty to felony theft and conspiracy charges after an OIG and VA Police investigation revealed that
      they stole cash, savings bonds, and credit cards from elderly Veterans who resided at the nursing
      home. Both defendants were also ordered to make full restitution to the victims.

  •		 A former Providence, RI, VAMC agent cashier was sentenced to 36 months’ probation and ordered
      to pay restitution of $1,527 to VA after pleading guilty to theft of Government funds. A joint OIG,
      FBI, and VA Police investigation revealed that the cashier initially reported that an armed individual
      robbed the agent cashier’s office. While being interviewed, the cashier recanted his story and
      admitted that he had stolen the cash, checks, and other items. A search of the cashier’s vehicle
      and residence resulted in the recovery of the stolen funds and blank checks.

  •		 A former Augusta, GA, VAMC nurse’s aide was sentenced to 6 months’ home confinement,
      5 years’ probation, 100 hours’ community service, and ordered to pay restitution of $8,190. An OIG
      and Department of Labor OIG investigation determined that the defendant made false statements
      in order to fraudulently obtain Federal workers’ compensation benefits. The investigation
      revealed that the defendant worked as a home improvement contractor while collecting workers’
      compensation.

  •		 A former Fort Harrison, MT, VA employee was sentenced to 24 months’ incarceration and 10 years’
      probation after pleading guilty to possession of child pornography. An OIG investigation disclosed
      that the defendant used his computer at the VAMC to download pornographic images from the
      internet and transfer them to his iPod.

  •		 A former Houston, TX, VAMC supervisor was indicted for theft by a public servant after an
      OIG investigation determined that the defendant was simultaneously employed by the Houston
      VAMC and another Houston area hospital while on the same work schedule. The loss to VA is
      approximately $15,000.

  •		 A former Providence, RI, VAMC employee was indicted for aiding and abetting and theft of
      Government property. An OIG and VA Police investigation determined that the defendant and an
      unknown accomplice stole two computers and flat screen monitors from the medical center.

  Threats Made Against VA Employees
  During this reporting period, OIG initiated 21 criminal investigations resulting from threats made
  against VA facilities and employees. Fourteen defendants were charged with making threats as a
  result of the investigations. Among them were the following:

  •		 A Veteran was sentenced to time served of almost 15 months, 60 months’ probation, and was
      ordered to obtain narcotic and MH treatment after pleading guilty to threatening to blow up a
      Federal facility by means of an explosive device. An OIG investigation discovered that in addition
      to threatening to blow up a VA facility, the Veteran also threatened to kill his VA fiduciary, a VARO

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
34 |
                                                                            Issue 63 | October 1, 2009 — March 31, 2010
Office of Investigations

      employee, and SSA employees.

•		 A Veteran was sentenced to 3 years’ incarceration and 3 years’ probation after pleading guilty to
    making threats against VA and its employees. The Veteran’s sentence was enhanced due to prior
    threats he made against VA. In October 2008, the defendant sent a letter to the Baton Rouge, LA,
    VAMC outpatient clinic stating that he would carry out specific threats if his demands were not met
    within 90 days.

•		 A Veteran was found guilty at trial of making terroristic threats. An OIG and FBI Joint Terrorism
    Task Force investigation revealed that the Veteran contacted the Jackson, MS, VAMC and made
    a threat to blow up the VA facility. The defendant conveyed a detailed plan to use Semtex, a
    commercially-available explosive, in elevator shafts and the radiology department.

•		 A Veteran was arrested at the Houma, LA, VA OPC after an OIG and local sheriff’s office
    investigation determined that the Veteran made telephonic and electronic threats to VA employees
    at the New Orleans VARO and the Houma OPC. The Veteran has a history of making threats and
    was involuntarily committed in May 2009 as a result of threats he made to the VARO, OIG, and a
    local sheriff’s office.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 35
Issue 63 | October 1, 2009 — March 31, 2010
                                                                Office of Investigations
�

  Fugitive Felons Arrested with OIG Assistance
  Veterans and VA employees continue to be identified and apprehended as a direct result of the OIG
  Fugitive Felon Program. To date, 34 million felon warrants have been received from the National
  Crime Information Center and participating states resulting in 50,699 investigative leads being referred
  to law enforcement agencies. Over 2,048 fugitives have been apprehended as a direct result of these
  leads. Since the inception of the program in 2002, OIG has identified $706.2 million in estimated
  overpayments with an estimated cost avoidance of $808.1 million. Forty-two fugitive felon program
  arrests were made by OIG, VA Police, U.S. Marshals, and local police during this reporting. Three
  of these arrests were of VAMC employees at various medical centers who were wanted on charges
  to include cocaine possession, drug violation, and probation violation. Apprehensions included the
  following:

  •		 OIG, working with a U.S. Marshals Service fugitive apprehension strike team, arrested a Veteran
      wanted for bank robbery. The Veteran is alleged to be responsible for robbing five banks in the
      Dallas-Fort Worth, TX, area. The Veteran received health care at VAMCs in Dallas, Temple, and
      Waco, TX. The Veteran is also suspected in a burglary of the Temple VAMC cafeteria, which
      occurred a month prior to the bank robberies.

  •		 Houston, TX, VAMC employee, who is also a Veteran, was arrested at the medical center with the
      assistance of the OIG for violating the terms of his probation following a 1999 homicide conviction.
      The employee’s criminal history includes prior arrests for manslaughter, fraud, controlled
      substances, and carrying prohibited weapons.

  •		 A Veteran was arrested by OIG and the U.S. Marshals Service for violating his parole after being
      convicted of robbery and failure to register as a sex offender. The Veteran was held pending
      extradition to California.




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
36 |
                                                                           Issue 63 | October 1, 2009 — March 31, 2010
Office of Management and Administration

The Office of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efficiency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.

Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide
reports, such as the Semiannual Report to Congress; develops OIG policies and procedures;
and electronically distributes all OIG oversight reports. The Operations Division also promotes
organizational effectiveness and efficiency by managing all OIG contracting and providing reliable,
timely human resources management, and related support services.

Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efficiency by ensuring the accessibility, usability,
and security of information assets; developing, maintaining, and enhancing the enterprise database
application; facilitating reliable, secure, responsive, and cost-effective access to VA databases and
electronic mail by all authorized employees; providing internet document management and control; and
providing support to all OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA files. Data Analysis Division products facilitate
the identification of fraud-related activities and support OIG comprehensive initiatives that result in
solutions beneficial to VA.

Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and
efficiency by providing reliable and timely management and administrative support services such as
employee travel, credit card purchases, and property management.

Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of
budgetary formulation and execution services to management and organizational components,
including formulation of submissions and operating plans; monitoring allocations, expenditures, and
reserves; conducting financial analyses; and developing internal budget policies.

Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 8:30 AM to 4:00 PM Eastern Time. Phone calls, letters,
and e-mails are received from employees, Veterans, the general public, Congress, the Government
Accountability Office, and other Federal agencies reporting issues of criminal activity, waste, abuse,
and mismanagement. During this reporting period, the Hotline received 14,600 contacts, 425 of which
became OIG cases. The Hotline also closed 514 cases during this reporting period, substantiating
allegations 46 percent of the time. The following cases were initiated as a direct result of Hotline
contacts:

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 37
Issue 63 | October 1, 2009 — March 31, 2010
                           Office of Management and Administration
�

  Violation of Privacy Act Substantiated
  A VHA review concluded that over a period of 11 months, medical personnel in two departments at the
  Danville, IL, VAMC improperly disposed of patient-sensitive documents in regular trash receptacles.
  Among other actions, the employees involved received refresher education on safeguarding and
  disposing of sensitive documents. Management also placed sensitive paper bins throughout the
  facility; contracted on-site shredding services; put processes into practice that ensure all paper
  documents and printouts, regardless of sensitivity, are placed into the sensitive paper bins; and
  created a full-time Privacy Officer position.

  Service Chief’s Harrassment of Terminally-Ill Employee Substantiated
  A VHA review at the Nashville, TN, VAMC determined that a Service Chief harassed and demoralized
  a terminally-ill employee, ordering that the employee remove head gear that was necessary as a result
  of hair loss from chemotherapy treatment. Administrative action was taken.

  Veteran Assessed an Overpayment for Failure to Report Additional Income
  The Milwaukee, WI, VARO determined that a Veteran in receipt of a pension did not inform VA
  that he was also receiving state unemployment benefits. The Veteran’s account was assessed an
  overpayment of $23,025.

  Castle Point, New York, VAMC In Violation of Prompt Payment Act Incurs Recurring Late Fees
  A review conducted by the Castle Point, NY, VAMC found that the VAMC’s untimely payment
  of invoices resulted in late fees of more than $68,000 spanning the last 4 years. To preclude a
  recurrence, the facility instituted programmatic changes including detailing an accounting technician to
  the Engineering Service to assist in tracking and expediting utility payments.

  VHA Review Finds Irregularities In Contract Award
  A VHA review determined that the Columbus, OH, VA Ambulatory Care Center awarded a contract to
  a vendor for $237,445, despite the fact that this bid was $97,000 higher than that of another vendor.
  The review revealed deficiencies in procedures pertaining to source selection evaluation. The
  contract remains under a stop work order and the Contracting Officer is working with legal counsel to
  implement corrective action. Management plans to address all procedural irregularities and conduct
  future VISN-wide training to ensure incorporation of best practices.

  VHA Overturns Decision to Deny $130,561 Fee Basis Claim
  The Phoenix, AR, HCS determined that it incorrectly denied a Veteran’s claim for fee basis care.
  Following a VISN 18 review of the case, the facility approved payment of the Veteran’s care in a
  community hospital, resulting in the processing of $130,561 in medical bills.




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
38 |
                                                                           Issue 63 | October 1, 2009 — March 31, 2010
Office of Contract Review

The Office of Contract Review (OCR) operates under a reimbursable agreement with
VA’s Office of Acquisition, Logistics and Construction (OALC) to provide preaward, postaward, and
other requested reviews of vendors’ proposals and contracts. In addition, OCR provides advisory
services to OALC contracting activities. OCR completed 50 reviews in this reporting period. The
tables that follow provide an overview of OCR performance during this reporting period.

Preaward Reviews
Preaward reviews provide information to assist VA contracting officers in negotiating fair and
reasonable contract prices and ensuring price reasonableness during the term of the contract.
Preaward reviews identified $271 million in potential cost savings during this reporting period. In
addition to FSS proposals, preaward reviews during this reporting period included 16 health care
provider proposals—accounting for almost $21 million of the identified potential savings. Reports
resolved through negotiations by contracting officers sustained 33 percent of OIG’s recommended
savings.


                                                           October 1, 2009—March 31, 2010

                     Preaward Reports Issued                                35
                       Potential Cost Savings                         $271,015,783



Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including
compliance with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products.
OCR reviews resulted in VA recovering contract overcharges totaling over $2.2 million, including
$1.2 million related to Veterans Health Care Act compliance with pricing requirements, recalculation
of Federal ceiling prices, and appropriate classification of pharmaceutical products. Postaward
reviews continue to play a critical role in the success of VA’s voluntary disclosure process. Of the
15 postaward reviews performed, 12 involved voluntary disclosures. In 5 of the 12 reviews, OCR
identified additional funds due.


                                                           October 1, 2009—March 31, 2010

                    Postaward Reports Issued                                15
                             Dollar Recoveries                          $2,280,262




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 39
Issue 63 | October 1, 2009 — March 31, 2010
                                            Other Significant OIG Activities
�

  Congressional Testimony
  Counselor, Assistant IG for Audits & Evaluations Testify on Acquisition Deficiencies in VA
  Counselor to the Inspector General Maureen Regan and Assistant Inspector General (AIG) for Audits
  and Evaluations Belinda Finn testified before the U.S. House of Representatives’ Committee on
  Veterans’ Affairs, Subcommittee on Oversight and Investigations, on acquisition deficiencies in VA.
  Ms. Regan told the Subcommittee that OIG audits, reviews, and investigations have identified systemic
  issues that caused or contributed to procurement failures, overpayments, and misuse of funds. These
  issues include poor acquisition planning, poorly written contracts, inadequate competition, no price
  reasonableness determinations, and poor contract administration.

  Deputy AIG for Audits and Evaluations Testifies on Mental Health and Orthopedic Services at
  the VA Pacific Islands HCS
  The Deputy AIG for Audits and Evaluations, Linda Halliday, testified at a Senate Veterans’ Affairs
  Committee field hearing in Maui, HI, on MH and orthopedic services for Veterans on the island of
  Maui. OIG reported that although PIHCS has experienced challenges in providing MH services to
  Veterans on Maui and the other outlying islands, it is effectively using VA’s Mental Health Initiative
  funding to recruit additional staff and expand telehealth services. OIG also reported that since
  FY 2006, PIHCS has made significant strides in reducing wait times for elective orthopedic surgery
  procedures, most notably by hiring two orthopedic surgeons. Walter Stucky, Audit Manager, Seattle
  Office of Audits and Evaluations, accompanied Ms. Halliday at the hearing.

  Deputy IG Testifies on FY 2011 OIG Budget
  Deputy IG Richard Griffin testified before the Subcommittee on Oversight and Investigations,
  Committee on Veterans’ Affairs, U.S. House of Representatives, on the OIG budget request for
  FY 2011. Mr. Griffin highlighted the OIG’s accomplishments in FY 2009 and explained how OIG
  would invest budget resources made available in FY 2011 to provide oversight for VA programs and
  operations. Mr. Griffin was accompanied by James O’Neill, AIG for Investigations; Belinda Finn, AIG
  for Audits and Evaluations; John D. Daigh, Jr., MD, AIG for Healthcare Inspections; and Maureen
  Regan, Counselor to the Inspector General.

  AIG for Audits and Evaluations Testifies on VA Purchased Health Care Services from Non-VA
  Providers
  AIG for Audits and Evaluations Belinda Finn testified before the Subcommittee on Health, Committee
  on Veterans’ Affairs, U.S. House of Representatives, on OIG findings regarding VHA purchases of
  health care services for Veterans from non-VA providers. OIG estimated that VA made over $1 billion
  in improper payments over a 5-year period. Ms. Finn was accompanied by Gary Abe, Director, Seattle
  Office of Audits and Evaluations.

  Anchorage VARO Inspection Report Subject of Senate Hearing
  AIG for Audits and Evaluations Belinda Finn testified at Senate Veterans’ Affairs Committee field
  hearings in Anchorage and Fairbanks, AK, on the results of an OIG inspection of the Anchorage
  VARO. OIG reported that the Anchorage VARO faces challenges in providing benefits and services to
  Veterans and the need for increased management oversight. The VARO did not meet VBA standards
  for 13 of the 14 operational areas inspected. Ms. Finn was accompanied by Brent Arronte, Director,
  Benefits Inspections Division.
                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
40 |
                                                                          Issue 63 | October 1, 2009 — March 31, 2010
Other Significant OIG Activities

AIG for Audits and Evaluations Testifies on VA’s Systematic Technical Accuracy Review
Program
Assistant Inspector General for Audits and Evaluations Belinda Finn testified before the Subcommittee
on Disability Assistance and Memorial Affairs, Committee on Veterans’ Affairs, U.S. House of
Representatives, on OIG findings related to VBA’s quality assurance processes. OIG projected
VBA’s accuracy rate for STAR reviewed claims was only 78 percent, 10 percentage points lower than
VBA’s reported error rate. She also told the Subcommittee that staff shortages affected VBA’s ability
to complete consistency reviews in claims with the same diagnostic codes in FY 2009, and that an
inadequate infrastructure and management strategy impeded another VBA quality assurance program,
the C&P Service’s Site Visit program, from accomplishing its mission and goals. Ms. Finn was
accompanied by Larry Reinkemeyer, Director, Kansas City Office of Audits and Evaluations.

Special Recognition
Gerard Sheeran, Office of Audits and Evaluations, Financial Audits Division, received the IG’s
Good Citizen Award in recognition of the role he played in the apprehension of a suspect in a bank
robbery in Alexandria, VA, on October 8, 2009. When the suspect leaped over the teller’s gate, Mr.
Sheeran seized the moment to exit the bank, warned others from entering, and notified local police.
Mr. Sheeran then followed the suspect as he left the bank and provided police with a description and
the attempted escape route of the bank robber. Mr. Sheeran later testified in related court proceedings
that led to the conviction of the suspect to 27.5 years of confinement.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                     | 41
Issue 63 | October 1, 2009 — March 31, 2010
                             Appendix A: List of OIG Reports Issued
�

                                               Funds Recommended for
                                                     Better Use                          Questioned
       Report Title, Number, and Issue Date
                                                           Agreed to by                    Costs
                                               by OIG
                                                           Management
                            INTERNAL AUDITS AND REVIEWS ($276,049,571)
   Audit of VA’s Consolidated Financial
   Statements for Fiscal Years 2009 and 2008
   Report No. 09-00976-25, Issued 11/16/2009
   Audit of Veterans Health Administration’s
   Undelivered Orders                              276,000,000 276,000,000
   Report No. 09-00088-38, Issued 12/02/2009
   Fiscal Year 2009 Federal Information Security
   Management Act Assessment
   Report No. 09-01682-91, Issued 03/04/2010
   Independent Review of VA’s Fiscal Year 2009
   Detailed Accounting Submission to the Office
   of National Drug Control Policy
   Report No. 10-01106-95, Issued 03/08/2010
   Independent Review of VA’s Fiscal Year 2009
   Performance Summary Report to the Office of
   National Drug Control Policy
   Report No. 10-01105-96, Issued 03/09/2010
   Review of Outpatient Fee Payments at the VA
   Pacific Islands Healthcare System                                                            49,571
   Report No. 09-02088-106, Issued 03/17/2010
   Audit of VA’s Efforts To Provide Timely
   Compensation and Pension Medical
   Examinations
   Report No. 09-02135-107, Issued 03/17/2010
   Audit of Fiduciary Program’s Effectiveness in
   Addressing Potential Misuse of Beneficiary
   Funds
   Report No. 09-01999-120, Issued 03/31/2010
                                      ARRA AUDITS AND REVIEWS
   VA’s Data Quality Review Process under the
   American Recovery and Reinvestment Act of
   2009
   Report No. 09-01814-16, Issued 10/30/2009
   Veterans Benefits Administration, Review
   of New Hire Productivity and the American
   Recovery and Reinvestment Act Hiring Initiative
   Report No. 09-01814-85, Issued 02/18/2010



                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
42 |
                                                                Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                     Funds Recommended for
                                                           Better Use           Questioned
         Report Title, Number, and Issue Date
                                                                 Agreed to by     Costs
                                                     by OIG
                                                                 Management
 American Recovery and Reinvestment Act
 Oversight Advisory Report—VHA Non-
 Recurring Maintenance Contract Award
 Oversight Needs Strengthening
 Report No. 09-01814-97, Issued 03/15/2010
                                        EXTERNAL REVIEW
 Peer Review of Department of Transportation
 Office of Inspector General Quality Control
 System for Fiscal Year 2009
 Report No. 10-00182-100, Issued 03/11/2010
                                      BENEFITS INSPECTIONS
 VA Regional Office, Baltimore, Maryland
 Report No. 09-01993-29, Issued 11/19/2009
 VA Regional Office, San Juan, Puerto Rico
 Report No. 09-01996-41, Issued 12/04/2009
 VA Regional Office, Anchorage, Alaska
 Report No. 09-01998-42, Issued 12/07/2009
 VA Regional Office, Roanoke, VA
 Report No. 09-01995-63, Issued 01/14/2010
 VA Regional Office, Philadelphia, PA
 Report No. 09-03846-93, Issued 03/04/2010
 VA Regional Office, Togus, ME
 Report No. 09-03659-111, Issued 03/23/2010
                         COMBINED ASSESSMENT PROGRAM REVIEWS
 Washington, DC, VA Medical Center
 Report No. 09-02376-02, Issued 10/05/2009
 Salem VA Medical Center, Salem Virginia
 Report No. 08-03077-04, Issued 10/06/2009
 Oscar G. Johnson VA Medical Center, Iron
 Mountain, Michigan
 Report No. 08-02603-05, Issued 10/07/2009
 James E. Van Zandt VA Medical Center,
 Altoona, Pennsylvania
 Report No. 09-01732-10, Issued 10/16/2009
 VA Maryland Health Care System, Baltimore,
 Maryland
 Report No. 09-01730-14, Issued 10/21/2009



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 43
Issue 63 | October 1, 2009 — March 31, 2010
                                Appendix A: List of OIG Reports Issued
�

                                                      Funds Recommended for
                                                            Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                                  Agreed to by                   Costs
                                                      by OIG
                                                                  Management
   Marion VA Medical Center, Marion, Illinois
   Report No. 08-03083-17, Issued 11/02/2009
   VA Hudson Valley Health Care System,
   Montrose, New York
   Report No. 08-02567-18, Issued 11/04/2009
   Huntington VA Medical Center, Huntington,
   West Virginia
   Report No. 08-03087-20, Issued 11/05/2009
   W.G. (Bill) Hefner VA Medical Center, Salisbury,
   North Carolina
   Report No. 08-03078-44, Issued 12/09/2009
   Louis Stokes Cleveland VA Medical Center,
   Cleveland, Ohio
   Report No. 09-03550-55, Issued 12/30/2009
   VA Roseburg Healthcare System, Roseburg,
   Oregon
   Report No. 09-02921-57, Issued 01/05/2010
   Phoenix VA Health Care System, Phoenix,
   Arizona
   Report No. 09-03313-59, Issued 01/11/2010
   VA Sierra Nevada Health Care System, Reno,
   Nevada
   Report No. 09-03039-62, Issued 01/14/2010
   VA Eastern Kansas Health Care System,
   Topeka, Kansas
   Report No. 09-03742-73, Issued 01/25/2010
   James J. Peters VA Medical Center, Bronx,
   New York
   Report No. 09-03272-70, Issued 01/25/2010
   VA Southern Nevada Healthcare System, Las
   Vegas, Nevada
   Report No. 09-03613-74, Issued 01/27/2010
   Charlie Norwood VA Medical Center, Augusta,
   Georgia
   Report No. 09-03298-80, Issued 02/02/2010
   VA Ann Arbor Healthcare System, Ann Arbor,
   Michigan
   Report No. 09-03271-84, Issued 02/16/2010



                                                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
44 |
                                                                      Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                     Funds Recommended for
                                                           Better Use           Questioned
         Report Title, Number, and Issue Date
                                                                 Agreed to by     Costs
                                                     by OIG
                                                                 Management
 Clement J. Zablocki VA Medical Center,
 Milwaukee, Wisconsin
 Report No. 09-03274-110, Issued 03/18/2010
 Cincinnati VA Medical Center, Cincinnati, Ohio
 Report No. 09-03532-112, Issued 03/19/2010
 VA Eastern Colorado Health Care System,
 Denver, Colorado
 Report No. 09-03040-114, Issued 03/24/2010
 Overton Brooks VA Medical Center,
 Shreveport, Louisiana
 Report No. 10-00048-118, Issued 03/29/2010
                       COMMUNITY BASED OUTPATIENT CLINIC REVIEWS
 Macon and Albany, GA; Beaver Dam, WI and
 Rockford, IL; Sioux City, IA and Aberdeen, SD;
 Waterloo, IA and Galesburg, IL
 Report No. 09-01446-37, Issued 12/02/2009
 Kosciusko and Meridian, MS; Tulsa, OK;
 Konawa and Lawton, OK; Texarkana, AR and
 Longview, TX
 Report No. 09-01446-105, Issued 03/17/2010
                                         NATIONAL REPORTS
 Review of Selected Pharmacy Operations in
 Veterans Health Administration Facilities
 Report No. 07-03254-40, Issued 12/03/2009
 Review of Inappropriate Copayment Billing for
 Treatment Related to Military Sexual Trauma
 Report No. 09-01110-81, Issued 02/04/2010
 Hospitalized Community-Dwelling Elderly
 Veterans: Cognitive and Functional
 Assessments and Follow-up after Discharge
 Report No. 09-01588-92, Issued 03/04/2010
                                      HEALTHCARE INSPECTIONS
 Alleged Nursing Quality of Care Issues, Edward
 Hines, Jr. VA Hospital, Hines, Illinois
 Report No. 09-02449-01, Issued 10/02/2009
 Alleged Vision Care Issues and Research
 Improprieties, James A. Haley VA Hospital,
 Tampa, Florida
 Report No. 09-02554-28, Issued 11/18/2009

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 45
Issue 63 | October 1, 2009 — March 31, 2010
                               Appendix A: List of OIG Reports Issued
�

                                                    Funds Recommended for
                                                          Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                                Agreed to by                   Costs
                                                    by OIG
                                                                Management
   Alleged Quality of Care Issues, Ralph H.
   Johnson VA Medical Center, Charleston, South
   Carolina
   Report No. 09-02538-30, Issued 11/30/2009
   Post-Operative Care Case Review at the VA
   Central Iowa Health Care System’s Knoxville
   Division, Knoxville, Iowa
   Report No. 09-02986-31, Issued 11/30/2009
   Alleged Quality of Care Issues, Martinsburg VA
   Medical Center, Martinsburg, West Virginia
   Report No. 09-02931-36, Issued 12/01/2009
   VistA Outages Affecting Patient Care, Office
   of Risk Management and Incident Response,
   Falling Waters, West Virginia
   Report No. 09-01849-39, Issued 12/03/2009
   Alleged Quality of Care Issues, Amarillo VA
   Health Care System, Amarillo, Texas
   Report No. 09-02797-45, Issued 12/09/2009
   Access to Care, Diagnosis, and Treatment at
   Community Based Outpatient Clinics in Smyrna
   and Rome, Georgia
   Report No. 09-02985-46, Issued 12/10/2009
   Alleged Quality of Care Issues, Central
   Arkansas Veterans Healthcare System, Little
   Rock, Arkansas
   Report No. 09-02397-48, Issued 12/11/2009
   Delay in Cancer Diagnosis and Treatment,
   Clement J. Zablocki VA Medical Center,
   Milwaukee, Wisconsin
   Report No. 09-01348-49, Issued 12/14/2009
   Review of an Unexpected Death, North
   Chicago VA Medical Center, North Chicago,
   Illinois
   Report No. 09-03245-53, Issued 12/22/2009
   Alleged Quality of Care Issues, VA Salt Lake
   City Health Care System, Salt Lake City, Utah
   Report No. 09-02589-54, Issued 12/28/2009




                                                                        VA O f f i c e o f I n s p e c t o r G e n e r a l
46 |
                                                                    Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                     Funds Recommended for
                                                           Better Use           Questioned
         Report Title, Number, and Issue Date
                                                                 Agreed to by     Costs
                                                     by OIG
                                                                 Management
 Quality of Care Issues, Louis A. Johnson VA
 Medical Center, Clarksburg, West Virginia
 Report No. 09-02950-58, Issued 01/07/2010
 Alleged Denial of Care and Quality of Care
 Issues, Veterans Health Care System of the
 Ozarks, Fayetteville, Arkansas
 Report No. 09-02987-60, Issued 01/13/2010
 Alleged Management Decisions Impacting
 Patient Care and Work Environment, Oscar G.
 Johnson VA Medical Center, Iron Mountain,
 Michigan
 Report No. 09-02470-61, Issued 01/13/2010
 Alleged Quality of Care Issues, Huntington VA
 Medical Center, Huntington, West Virginia
 Report No. 09-02988-66, Issued 01/19/2010
 Review of Allegations of Coding and Billing
 Irregularities, VA Medical Center, Kansas City,
 Missouri
 Report No. 09-03418-68, Issued 01/20/2010
 Telemetry Monitoring Issues, VA Eastern
 Colorado Health Care System, Denver,
 Colorado
 Report No. 09-01047-69, Issued 01/21/2010
 Alleged Quality of Care issues, Wilkes-Barre
 VA Medical Center, Wilkes-Barre, Pennsylvania
 Report No. 09-03851-87, Issued 02/23/2010
 Alleged Mismanagement of Resources and
 Patient Safety Issues, VA Northern Indiana
 Health Care System, Fort Wayne and Marion,
 Indiana
 Report No. 09-02346-90, Issued 03/02/2010
 Patient Safety Issues, VA Caribbean
 Healthcare System, San Juan, Puerto Rico
 Report No. 09-03055-103, Issued 03/16/2010
 Alleged Mental Health Issues, Fargo VA
 Medical Center, Fargo, North Dakota
 Report No. 09-01636-113, Issued 03/23/2010




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 47
Issue 63 | October 1, 2009 — March 31, 2010
                             Appendix A: List of OIG Reports Issued
�

                                                  Funds Recommended for
                                                        Better Use                             Questioned
       Report Title, Number, and Issue Date
                                                              Agreed to by                       Costs
                                                  by OIG
                                                              Management
   Mental Health Safety Issues and Credentialing
   & Privileging Irregularities, Alexandria VA
   Medical Center, Pineville, Louisiana
   Report No. 09-02858-121, Issues 03/31/2010
                                     ADMINISTRATIVE INVESTIGATIONS
   Abuse of Authority, Misuse of Position and
   Resources, Acceptance of Gratuities, &
   Interference with an OIG Investigation, National
   Programs and Special Events
   Report No. 09-01492-83, Issued 02/05/2010
   Misuse of Official Time, North Chicago VA
   Medical Center
   Report No. 08-01589-86, Issued 02/19/2010
                                    PREAWARD REVIEWS ($271,015,783)
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation 797-FSS-99-
   0025-R6
   Report No. 09-02725-06, Issued 10/06/2009
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation 797-FSS-99-
                                                     $2,293,392
   0025-R6
   Report No. 09-02484-09, Issued 10/15/2009
   Review of Proposal Submitted under
   Solicitation Number VA-247-08-RP-0403
   for Neuroradiology Services at the Charlie         $168,874
   Norwood VA Medical Center, Augusta, Georgia
   Report No. 09-03449-11, Issued 10/29/2009
   Review of Proposal under Solicitation Number
   VA-245-09-RP-1059 for Emergency Medical
   Services at the Washington DC VA Medical          $1,212,961
   Center
   Report No. 09-03542-19, Issued 11/05/2009
   Review of Proposal Submitted under
   Solicitation Number VA-245-09-RP-0089 for
   Emergency Care Services at VA Maryland            $2,202,257
   Health Care System
   Report No. 09-03327-21, Issued 11/06/2009




                                                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
48 |
                                                                      Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                     Funds Recommended for
                                                           Better Use           Questioned
         Report Title, Number, and Issue Date
                                                                 Agreed to by     Costs
                                                     by OIG
                                                                 Management
 Review of Proposal Submitted under
 Solicitation Number VA-248-08-RP-0084 for
 Neurological Surgery Services at Miami VA           $3,776,924
 Healthcare System
 Report No. 09-03576-11, Issued 11/09/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
                                                     $7,321,635
 Q50A-03-R2
 Report No. 09-02378-24, Issued 11/12/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
 Q50A-03-R2
 Report No. 09-02800-26, Issued 11/13/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
                                                     $75,332,124
 Q50A-03-R2
 Report No. 09-02749-23, Issued 11/16/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
                                                       $7,651
 Q50A-03-R2
 Report No. 09-02216-27, Issued 11/16/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
 Q50A-03-R2
 Report No. 09-03448-32, Issued 11/20/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
 Q50A-03-R2
 Report No. 09-03446-33, Issued 11/20/2009
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
 Q50A-03-R2
 Report No. 09-00710-35, Issued 11/24/2009
 Review of Proposal to Provide Primary Medical
 Care Services to Underserved Veterans
                                                     $1,316,586
 Residing In and Around El Dorado, Arkansas
 Report No. 09-03606-34, Issued 11/25/2009




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 49
Issue 63 | October 1, 2009 — March 31, 2010
                              Appendix A: List of OIG Reports Issued
�

                                                   Funds Recommended for
                                                         Better Use                         Questioned
       Report Title, Number, and Issue Date
                                                               Agreed to by                   Costs
                                                   by OIG
                                                               Management
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation 797-FSS-99-
                                                    $679,302
   0025-R6
   Report No. 09-03506-43, Issued 12/02/2009
   Review of Proposal to Provide Primary Medical
   Care Services to Veterans Residing In and
                                                   $1,027,055
   Around Pine Bluff, Arkansas
   Report No. 10-00591-50, Issued 12/17/2009
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number RFP-797-
                                                   $22,702,167
   FSS-99-0025-R6
   Report No. 09-02983-52, Issued 12/23/2009
   Review of Proposal Submitted under
   Solicitation Number VA-263-08-RP-0180 for
   Cardiac-Thoracic Physician Services at VAMC     $1,971,634
   Minneapolis
   Report No. 09-03605-36, Issued 01/09/2010
   Pre-Extension Review of Federal Supply
   Schedule Proposal                               $80,041,739
   Report No. 09-03094-64, Issued 01/14/2010
   Review of Proposal Submitted under
   Solicitation Number VA-256-09-RP--0083
   for Radiology Services at Central Arkansas      $1,719,101
   Veterans Healthcare System
   Report No. 10-00592-67, Issued 01/25/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number RFP-797-
                                                   $8,694,027
   FSS-99-0025-R6
   Report No. 09-02279-71, Issued 01/25/2010
   Review of Proposal Submitted under
   Solicitation Number VA-69D-09-RP-0223 for
   Radiation Physicist Services at Clement J.       $729,514
   Zablocki VA Medical Center
   Report No. 10-00781-72, Issued 01/27/2010
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number M5-
                                                   $32,213,355
   Q50A-03-R2
   Report No. 09-03037-77, Issued 01/29/2010



                                                                       VA O f f i c e o f I n s p e c t o r G e n e r a l
50 |
                                                                   Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                     Funds Recommended for
                                                           Better Use           Questioned
         Report Title, Number, and Issue Date
                                                                 Agreed to by     Costs
                                                     by OIG
                                                                 Management
 Review of Proposal Submitted under Purchase
 Order Number 640-10-1-097-0012, for Vascular
 Interventional Radiology Physicians Services at      $387,947
 the VA Palo Alto Healthcare System
 Report No. 10-00735-78, Issued 02/03/2010
 Review of Proposal Submitted under Purchase
 Order Number 640-10-1-097-0013, for
 Neuroradiology Physicians Services at the VA         $388,370
 Palo Alto Healthcare System
 Report No. 10-00733-79, Issued 02/03/2010
 Review of Proposal Submitted under
 Solicitation Number VA-259-09-RP-0412, for
 Cardiothoracic Surgery Services at VA Eastern       $2,512,127
 Colorado Health System
 Report No. 10-00946-82, Issued 02/03/2010
 Review of Proposal Submitted under
 Solicitation Number VA-263-09-RP-0030 for
 Dermatology Services at VA Medical Center            $109,149
 Minneapolis
 Report No. 10-01284-88, Issued 02/23/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
                                                      $10,150
 Q50A-03-R2
 Report No. 09-03789-89, Issued 02/25/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number RFP-797-
                                                     $18,524,313
 FSS-99-0025-R6
 Report No. 09-03688-94, Issued 03/05/2010
 Review of Proposal Submitted under
 Solicitation Number VA-246-09-RP-0035 for
 Liver Transplant Services to the VA Medical         $1,409,277
 Center in Richmond, Virginia
 Report No. 10-00911-99, Issued 03/10/2010
 Review of Federal Supply Schedule Proposal
 Submitted under Solicitation Number M5-
 Q50A-03-R2
 Report No. 10-00863-101, Issued 03/10/2010




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 51
Issue 63 | October 1, 2009 — March 31, 2010
                             Appendix A: List of OIG Reports Issued
�

                                               Funds Recommended for
                                                     Better Use                            Questioned
       Report Title, Number, and Issue Date
                                                           Agreed to by                      Costs
                                               by OIG
                                                           Management
   Review of Federal Supply Schedule Proposal
   Submitted under Solicitation Number RFP-797-
                                                 $628,634
   FSS-99-0025-R6
   Report No. 10-00463-102, Issued 03/10/2010
   Review of Proposal to Provide Mental Health
   and Substance Abuse Services to Underserved
   Veterans Residing in Aroostook and            $100,122
   Washington Counties, Maine
   Report No.10-01483-104, Issued 03/17/2010
   Review of Contract Extension Proposal
   Submitted under the Federal Supply Schedule  $2,062,187
   Report No. 10-00771-108, Issued 03/17/2010
   Review of Proposal Submitted under
   Solicitation Number VA-244-09-RP-0302 for
   Cardiac Surgery Services at VA Pittsburgh    $1,473,209
   Healthcare System
   Report No. 10-00938-117, Issued 03/31/2010
                                 POSTAWARD REVIEWS ($2,280,261)
   Review of Voluntary Disclosure and Refund
   Offer under the Federal Supply Schedule                                                       $11,822
   Report No. 09-02912-12, Issued 10/22/2009
   Review of Voluntary Disclosure and Refund
   Offer under the Federal Supply Schedule                                                        $4,539
   Report No. 09-03797-13, Issued 10/22/2009
   Review of Voluntary Disclosure and Refund
   Offer under the Federal Supply Schedule                                                      $153,651
   Report No. 08-03159-07, Issued 10/29/2009
   Review of Contract Modification under the
   Federal Supply Schedule                                                                        $9,819
   Report No. 09-02981-08, Issued 10/29/2009
   Review of Overcharges Related to Removal
   of a Covered Drug under the Federal Supply
                                                                                                  $2,506
   Schedule
   Report No. 09-03658-03, Issued 11/02/2009
   Review of Overcharges Relating to the Late
   Addition of a Covered Drug under the Federal
                                                                                                $108,062
   Supply Schedule
   Report No. 08-03208-15, Issued 11/02/2009



                                                                      VA O f f i c e o f I n s p e c t o r G e n e r a l
52 |
                                                                  Issue 63 | October 1, 2009 — March 31, 2010
Appendix A: List of OIG Reports Issued
�

                                                      Funds Recommended for
                                                            Better Use             Questioned
         Report Title, Number, and Issue Date
                                                                  Agreed to by       Costs
                                                      by OIG
                                                                  Management
 Review of Overcharges Relating to
 Recalculation of Federal Ceiling Prices under
                                                                                     $11,912
 the Federal Supply Schedule
 Report No. 09-01522-47, Issued 12/16/2009
 Review of Overcharges Relating to Merck &
 Co., Inc.’s Recalculation of Federal Ceiling
 Prices for Vaccine Products under the Federal                                       $224,829
 Supply Schedule
 Report No. 09-00345-51, Issued 12/18/2009
 Post-Award Review under the Federal Supply
 Schedule
 Report No. 07-02487-65, Issued 01/15/2010
 Review of Unpaid Rebates for Calendar Year
 2008 under the Federal Supply Schedule                                              $480,814
 Report No. 10-01165-75, Issued 01/26/2010
 Review of Voluntary Disclosure and Refund
 Offer under the Federal Supply Schedule                                             $37,988
 Report No. 09-03313-76, Issued 02/02/2010
 Review of Overcharges Relating to
 Recalculation of Federal Ceiling Prices under
                                                                                     $819,644
 the Federal Supply Schedule
 Report No. 90-00519-98, Issued 03/09/2010
 Review of Voluntary Disclosure and Refund
 Offer under the Federal Supply Schedule                                             $370,489
 Report No. 10-00430-115, Issued 03/23/2010
 Review of Overcharges Relating to Federal
 Ceiling Price Recalculations under the Federal
                                                                                     $43,474
 Supply Schedule
 Report No. 09-03738-116, Issued 03/24/2010
 Review of Overcharges Relating to Federal
 Ceiling Price Errors under the Federal Supply
                                                                                      $712
 Schedule
 Report No. 10-00295-119, Issued 03/26/2010
 Totals                                              $547,015,783   $547,015,783    $2,329,832




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                 | 53
Issue 63 | October 1, 2009 — March 31, 2010
                             Appendix B: Unimplemented OIG Reports and
                                                      Recommendations
  The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to
  complete final action on each OIG report recommendation within 1 year after the report is finalized.
  OIG is required to identify unimplemented recommendations in its Semiannual Report to Congress
  until the final action is completed. This table summarizes the status of all unimplemented OIG reports
  and recommendations. Results are sorted by the action office responsible for implementation.
  Additionally, the table indicates how many of these unimplemented OIG reports and recommendations
  are less than or more than 1 year. Some reports and recommendations are counted more than once
  because they have actions at more than one office. Of the reports open less than 1 year, 7 reports
  and 14 recommendations have actions at two or more offices. Although the FY 2009 FISMA audit
  contains unimplemented OIG recommendations from previous years’ FISMA audits, the report and its
  recommendations are considered to be open less than 1 year because it was issued after March 31,
  2009.


               Table 1: Total Unimplemented OIG Reports and Recommendations
                                           VHA VBA OI&T OSP1 OM2 OALC P&IA3 Total
 Total Reports Open                         83    15     9    1   2      5  1  116
   Reports Open Less Than 1 Year             75   14     8    0   2      5  1  105
   Reports Open More Than 1 Year             8     1     1    1   0      0  0   11
 Total Recommendations Open                 438   69   104    1   3     19  20 654
   Recommendations Open Less Than 1 Year 419      67   103    0   3     19  20 631
   Recommendations Open More Than 1 Year 19        2     1    1   0      0  0   23

  1 Office of Operations, Security, and Preparedness

  2 Office of Management

  3 Office of Public and Intergovernmental Affairs




                                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
54 |
                                                                         Issue 63 | October 1, 2009 — March 31, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
      Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open    Monetary
    Report Title, Number, and Issue Date
                                            Organization Recommendations    Impact
 Audit of VA Acquisition Practices for the
 National Vietnam Veterans Longitudinal
                                               VHA            1 of 3           -
 Study
 Report No. 04-02330-212, Issued 09/30/2005

 Recommendation 1: We recommended that the Under Secretary for Health and the Chief Management Officer initiate
 formal acquisition planning and proper contracting processes to expeditiously and successfully complete the Study and
 ensure that assigned project management and contracting staff have the required knowledge and skills to effectively
 plan, procure, administer, and manage the Study in accordance with pertinent legal, procedural, and technical
 requirements.

 Review of Access to Care in the Veterans
 Health Administration                                           VHA                   2 of 9                     -
 Report No. 05-03028-145, Issued 05/17/2006

 Recommendation 3a: We recommended that the Under Secretary for Health establish standardized tracking methods
 and appropriate performance metrics to evaluate and improve the timeliness of elective procedures.

 Recommendation 3b: We recommended that the Under Secretary for Health implement prioritization processes to
 ensure that Veterans receive clinically indicated elective procedures according to their clinical needs.

 Review of Issues Related to the Loss of
 VA Information Involving the Identity of
                                                                OI&T                   1 of 6                     -
 Millions of Veterans
 Report No. 06-02238-163, Issued 07/11/2006

 Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and have
 proper sensitivity level designations, that there is consistency nationwide for positions that are similar in nature or
 have similar access to VA protected information and automated systems, and that all required background checks are
 completed in a timely manner.

 Audit of the Acquisition and Management
 of Selected Surgical Device Implants                            VHA                   1 of 7              $21,913,781
 Report No. 06-03677-221, Issued 09/28/2007

 Recommendation 1: We recommended that the Under Secretary for Health, within a year, evaluates VHA’s aortic
 valve, coronary stent, and thoracic graft purchases; studies the feasibility of establishing national contracts and BPAs;
 and where indicated, initiates national contracts and BPAs.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                             | 55
Issue 63 | October 1, 2009 — March 31, 2010
                     Appendix B: Unimplemented OIG Reports and
                                              Recommendations
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                              Organization Recommendations   Impact
   Audit of Veterans Health Administration’s
   Oversight of Nonprofit Research and
                                                 VHA            4 of 5          -
   Education Corporations
   Report No. 07-00564-121, Issued 05/05/2008

   Recommendation 1: We recommended that the Under Secretary for Health prepare a recommendation to the
   Secretary defining the oversight authorities of the NPOB, CFO, and NPPO and update VHA Handbook 1200.17 to
   incorporate these authorities.

   Recommendation 3: We recommended that the Under Secretary for Health revise VHA Handbook 1200.17 to clearly
   define minimum control requirements for all NPCs and provide training to NPC Directors on these requirements.

   Recommendation 4: We recommended that the Under Secretary for Health develop and implement oversight
   procedures to perform substantive reviews of NPC financial and management controls to ensure NPCs fully comply
   with Federal laws, VHA policies, and control standards.

   Recommendation 5: We recommended that the Under Secretary for Health develop and implement procedures to
   review, monitor, and enforce NPC compliance with conflict of interest laws and policies.

   Audit of Veterans Benefits Administration
   Transition Assistance for Operations
   Enduring and Iraqi Freedom Service                          VBA                  2 of 8                                -
   Members and Veterans
   Report No. 06-03552-169, Issued 07/17/2008

   Recommendation 6: We recommended the Acting Under Secretary for Benefits develop a mechanism to obtain the
   DD-214 information needed to identify discharged Veterans who should receive outreach letters.

   Recommendation 8: We recommended the Acting Under Secretary for Benefits establish policies and procedures that
   require staff to provide special outreach to Veterans who do not have a high school diploma or equivalent.

   Audit of Veterans Health Administration’s
   Government Purchase Card Practices                          VHA                  1 of 4                        $799,997
   Report No. 07-02796-203, Issued 09/11/2008

   Recommendation 2: We recommended the Under Secretary for Health provide approving officials refresher training
   on using the revised Approving Official Checklist to ensure cardholders maintain adequate documentation supporting
   purchases.




                                                                                        VA O f f i c e o f I n s p e c t o r G e n e r a l
56 |
                                                                                    Issue 63 | October 1, 2009 — March 31, 2010
Appendix B: Unimplemented OIG Reports and
Recommendations
     Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                            Responsible Number of Open    Monetary
   Report Title, Number, and Issue Date
                                            Organization Recommendations   Impact
 Audit of Veterans Health Administration
 Noncompetitive Clinical Sharing
                                               VHA            7 of 7     $59,895,666
 Agreement
 Report No. 08-00477-211, Issued 09/29/2008

 Recommendation 1: We recommended that the Under Secretary for Health ensure that VISNs establish standardized
 written procedures for monitoring FTE-based and per-procedure clinical service sharing agreements.

 Recommendation 2: We recommended that the Under Secretary for Health establish VISN-level oversight controls to
 ensure that COTRs are effectively monitoring contractor performance under the terms of the sharing agreement before
 certifying invoices for payment.

 Recommendation 3: We recommended that the Under Secretary for Health implement procedures to ensure that
 COTRs verify that Medicare-based sharing agreement charges are accurately calculated prior to certifying contractor
 invoices.

 Recommendation 4: We recommended that the Under Secretary for Health coordinate with VA’s Office of Acquisition
 and Logistics to develop performance monitoring training for COTRs that specifically addresses clinical sharing
 agreements.

 Recommendation 5: We recommended that the Under Secretary for Health instruct the VISN contracting officers to
 initiate recovery of overpayments identified by our audit, as appropriate.

 Recommendation 6: We recommended that the Under Secretary for Health coordinate with VA’s Office of Acquisition
 and Logistics to develop training for VISN contracting officers on negotiating per-procedure sharing agreements with
 Medicare-based charges.

 Recommendation 7: We recommended that the Under Secretary for Health implement oversight mechanisms to
 ensure that per-procedure sharing agreements for onsite clinical services exclude the Medicare practice component
 charges from contract rates, as required by VA policy.

 Audit of Procurements Using Prior-Year
 Funds to Maintain VA Healthcare Facilities                   VHA                   2 of 7             $10,104,678
 Report No. 08-00244-213, Issued 09/30/2008

 Recommendation 5: We recommended the Under Secretary for Health initiate appropriate administrative action
 against contracting officers who entered inaccurate contract award dates in the electronic procurement accounting
 system and later signed the contracts after they should have known the funds had expired.

 Recommendation 7: We recommended the Under Secretary for Health consult with the Assistant Secretary for
 Management to develop plans to implement controls over obligation of expired funds in other VHA programs, projects,
 or activities.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 57
Issue 63 | October 1, 2009 — March 31, 2010
                     Appendix B: Unimplemented OIG Reports and
                                              Recommendations
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                             Responsible Number of Open    Monetary
     Report Title, Number, and Issue Date
                                             Organization Recommendations    Impact
   Audit of the Veterans Health
   Administration’s Domiciliary Safety,
                                                OSP            1 of 8           -
   Security, and Privacy
   Report No. 08-01030-05, Issued 10/08/2008

       Recommendation 2: We recommend the Assistant Secretary for Operations, Security, and Preparedness
       strengthen controls to ensure physical security surveys are conducted at domiciliaries with controlled substances.

   Combined Assessment Program Review of
   the VA Central Iowa Health Care System,
                                                                 VHA                  1 of 13                                -
   Des Moines, Iowa
   Report No. 08-02597-63, Issued 02/03/2009

   Recommendation 4: We recommended that the VISN Director ensure that the System Director requires that identified
   safety, IC, and patient privacy deficiencies be corrected.

   TOTALS                                                          11                    23                       $92,714,122




                                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
58 |
                                                                                       Issue 63 | October 1, 2009 — March 31, 2010
Appendix C: Inspector General Act Reporting
Requirements
The table below cross-references the specific pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.

The Federal Financial Management Improvement Act of 1996, P.L. 104-208, (FFMIA) requires OIG to
report instances and reasons when VA has not met the intermediate target dates established in the
VA remediation plan to bring VA’s financial management system into substantial compliance with the
Act. The audit of VA’s consolidated financial statements for FY 2008 and 2007 reported three material
weaknesses, all of which are repeat conditions from the prior year’s audit. The audit also indicated
that VA is not in substantial compliance with FFMIA because VA did not substantially comply with
Federal financial management systems requirements. VA is in the process of revising and expanding
existing remediation plans for the three repeat material weaknesses identified in the FY 2008 and
2007 audit.


         IG Act                                                Reporting                                   Status
       References                                           Requirements
                                       Review of legislative, regulatory, and administrative        Commented on
  Section 4 (a) (2)
                                       proposals                                                    336 items
  Section 5 (a) (1)                    Significant problems, abuses, and deficiencies               See pages 7-41

                                       Recommendations with respect to significant problems,
  Section 5 (a) (2)                                                                                 See pages 7-41
                                       abuses, and deficiencies
                                       Prior significant recommendations on which corrective
  Section 5 (a) (3)                                                                                 See pages 54-58
                                       action has not been completed
                                       Matters referred to prosecutive authorities and resulting
  Section 5 (a) (4)                                                                                 See pages 7-41
                                       prosecutions and convictions

  Section 5 (a) (5)                    Summary of instances where information was refused           None
                                       List of reports by subject matter, showing dollar value of
  Section 5 (a) (6)                    questioned costs and recommendations that funds be           See pages 42-53
                                       put to better use
  Section 5 (a) (7)                    Summary of each particularly significant report              See pages 7-41
                                       Statistical tables showing number of reports and dollar
  Section 5 (a) (8)                    value of questioned costs for unresolved, issued, and        See page 60
                                       resolved reports
                                        Statistical tables showing number of reports and dollar
  Section 5 (a) (9)                     value of recommendations that funds be put to better        See page 60
                                        use for unresolved, issued, and resolved reports




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                      | 59
Issue 63 | October 1, 2009 — March 31, 2010
                         Appendix C: Inspector General Act Reporting
                                                       Requirements
         IG Act                                    Reporting                                          Status
       References                                Requirements
                           Summary of each audit report issued before this
                                                                                           See Table 1 and
   Section 5 (a) (10)      reporting period for which no management decision was
                                                                                           Table 2 below
                           made by end of reporting period
   Section 5 (a) (11)      Significant revised management decisions                        None
                           Significant management decisions with which the
   Section 5 (a) (12)                                                                      None
                           Inspector General is in disagreement
   Section 5 (a) (13)      Information described under section 5(b) of FFMIA               See page 60




                        Table 1: Resolution Status of Reports with Questioned Costs
	
                                                                                                  Dollar Value
                        RESOLUTION STATUS                              Number
                                                                                                  (In Millions)
   No management decision by 03/31/2009                                   0                                         $0
   Issued during reporting period                                         1                                    $49,571
     Total inventory this period                                          1                                    $49,571
   Management decisions during the reporting period
   Disallowed costs (agreed to by management)                             1                                    $49.571
   Allowed costs (not agreed to by management)                            0                                         $0
     Total management decisions this reporting period                     1                                    $49.571
     Total carried over to next period                                    0                                         $0




                  Table 2: Resolution Status of Reports with Recommended Funds 

                              To Be Put To Better Use By Management
	
                                                                                                  Dollar Value
                        RESOLUTION STATUS                              Number
                                                                                                  (In Millions)
   No management decision by 03/31/2009                                   0                                            $0
   Issued during reporting period                                         1                                          $276
     Total inventory this period                                          1                                          $276
   Management decisions during the reporting period
   Agreed to by management                                                1                                          $276
   Not agreed to by management                                            0                                            $0
     Total management decisions this reporting period                     1                                          $276
     Total carried over to next period                                    0                                            $0




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
60 |
                                                                           Issue 63 | October 1, 2009 — March 31, 2010
Appendix D: Government Contractor Audit
Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each
Inspector General appointed under the Inspector General Act of 1978 to submit an appendix on
final, completed contract audit reports issued to the contracting activity that contain significant audit
findings—unsupported, questioned, or disallowed costs in an amount in excess of $10 million, or other
significant findings—as part of the Semiannual Report to Congress. During this reporting period, OIG
issued no contract review reports under this requirement.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 61
Issue 63 | October 1, 2009 — March 31, 2010
           Appendix E: American Recovery and Reinvestment
                                   Act Oversight Activities
  Enacted in February 2009, ARRA requires OIG to conduct oversight of the VA projects, programs,
  grants, and initiatives that received a total of $1.4 billion in funding under the Act. OIG’s program of
  oversight includes audits, evaluations, investigation, fraud awareness and prevention training, and
  other monitoring activities covering the major VA programs that received ARRA funding. The VA
  programs and the amounts of their ARRA funding include:

       •		 $1.0 billion for VHA medical facility nonrecurring maintenance and energy projects.
       •		 $150.0 million for VHA Grants to States for extended care facilities.
       •		 $50.0 million for National Cemetery Administration headstone, marker, gravesite, and 

           monument repairs; NRM, energy, and road repair projects; and equipment upgrades. 

       •		 $157.1 million for VBA claims processing hiring initiative and support of Veterans economic
           recovery payments.
       •		 $50.1 million for OI&T support of VBA implementation of the new Post 9/11 GI Bill education
           assistance programs for Veterans.

  As of March 31, 2010, OIG has expended $1.53 million (the entire $1.0 million OIG received under
  ARRA and $530,000 from regular appropriations) in conducting its comprehensive program of ARRA
  oversight. OIG’s ARRA-related accomplishments and activities completed to date include:

       •		 Issuing three final audit and evaluation reports and one interim advisory report on VA 

           management of ARRA program activities.
	
       •		 Completing four other audits and evaluations for which reports will be issued in the second half
           of FY 2010.
       •		 Conducted 160 fraud awareness training and outreach sessions across the country attended by
           over 6,800 VA and other officials responsible for managing or overseeing ARRA programs and
           projects.
       •		 Opened nine criminal investigations of alleged wrongdoing pertaining to ARRA-funded projects.
       •		 Received 21 Hotline complaints of potential fraud or waste related to ARRA projects.
       •		 Established the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides
           access to the VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud
           prevention training materials.




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
62 |
                                                                             Issue 63 | October 1, 2009 — March 31, 2010
This page left blank intentionally
	
This page left blank intentionally
	
On the Cover
Soldiers and Tactical Air Control Party Airmen from the 173rd Airborne Brigade, U.S. European
Command, prepare for a low-altitude training jump from a UH-60 Black Hawk Helicopter
near Maniago, Italy. Photo taken November 19, 2004, by Priscilla Robinson, courtesy of the
Department of Defense.
  United States Department of Veterans Affairs 

          Office of Inspector General
�



Report Fraud, Waste, Abuse, or
         Misconduct
 Help VA’s Secretary ensure the integrity of departmental
 operations by reporting suspected criminal activity,waste,
 abuse, or misconduct in VA programs or operations to
 the Inspector General Hotline. Callers can remain
 anonymous.

Telephone: 800-488-VAIG (8244) | Fax: 202-565-7936
             E-mail: vaoighotline@va.gov
            Department of Veterans Affairs
           Inspector General Hotline (53E)
                   P.O. Box 50410
             Washington, DC 20091-0410

     http://www.va.gov/oig/contacts/hotline.asp
